<html>
<title> - SANDY AND ITS IMPACTS: A LOCAL PERSPECTIVE</title>
<body><pre>[Senate Hearing 112-979]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-979

               SANDY AND ITS IMPACTS: A LOCAL PERSPECTIVE

=======================================================================

                                 HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 29, 2012

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]   
  


         Available via the World Wide Web: http://www.fdsys.gov
               
               
            
 

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-115 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1e796e715e7d6b6d6a767b726e307d717330">[email&#160;protected]</a>               
               
               
               
               
               
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

                Bettina Poirier, Majority Staff Director
                 Ruth Van Mark, Minority Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                           NOVEMBER 29, 2012
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....     2
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     3
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     6
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     9
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................    11
Gillibrand, Hon. Kirsten, U.S. Senator from the State of New York    14
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................    44

                               WITNESSES

Reed, Hon. Jack, U.S. Senator from the State of Rhode Island.....    17
Schumer, Hon. Charles E., U.S. Senator from the State of New York    20
Menendez, Hon. Robert, U.S. Senator from the State of New Jersey.    24
Blumenthal, Hon. Richard, U.S. Senator from the State of 
  Connecticut....................................................    28
Pallone, Hon. Frank, Jr., U.S. Representative from the State of 
  New Jersey.....................................................    31
Langevin, Hon. Jim, U.S. Representative from the State of Rhode 
  Island.........................................................    33
Bishop, Hon. Timothy, U.S. Representative from the State of New 
  York...........................................................    33
Cicilline, Hon. David, U.S. Representative from the State of 
  Rhode Island...................................................    35
Holt, Hon. Rush, U.S. Representative from the State of New Jersey    36
Harris, Hon. Andy, U.S. Representative from the State of Maryland    37
Pascrell, Hon. Bill, Jr., U.S. Representative from the State of 
  New Jersey.....................................................    38
Engel, Hon. Eliot, U.S. Representative from the State of New York    39
Grimm, Hon. Michael, U.S. Representative from the State of New 
  York...........................................................    40
Courtney, Hon. Joe, U.S. Representative from the State of 
  Connecticut....................................................    41
Smith, Hon. Chris, U.S. Representative from the State of New 
  Jersey.........................................................    43

 
               SANDY AND ITS IMPACTS: A LOCAL PERSPECTIVE

                              ----------                              


                      THURSDAY, NOVEMBER 29, 2012

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full Committee met, pursuant to notice, at 9:30 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(Chairman of the full Committee), presiding.
    Present: Senators Boxer, Vitter, Carper, Lautenberg, 
Cardin, Whitehouse, and Gillibrand.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Good morning, everyone. We are here today to 
receive testimony from Members of Congress, Representatives and 
Senators, who represent communities that were the most impacted 
by the destruction left in the wake of Superstorm Sandy.
    Many communities in the eastern half of our nation were 
devastated by Sandy. Countless homes were destroyed; more than 
120 lost their lives. And as representatives of the people 
affected, I know that our witnesses today will give us clear 
and graphic testimony, so that we truly understand what extreme 
weather can do.
    Now, certainly we know Senators Landrieu and Vitter brought 
it home to us in Katrina. But these events are happening more 
and more often, and we have to focus on what it means to our 
people.
    Many of our fellow citizens have a long road ahead to 
rebuild their lives and their communities. We have a duty to be 
by their side during this difficult time in the months to come.
    This hearing will create a record to this Committee, which 
has jurisdiction over flood control and other related issues. 
We will explore how we can prevent or mitigate such incredible 
destruction in future extreme weather events as we take up the 
WRDA bill.
    There is a photo we have, I believe, from NASA. It 
illustrates why Superstorm Sandy is ranked as one of the worst 
natural disasters to ever hit our nation and how it caused such 
widespread destruction. Stretching from Maine to the Gulf 
States, Sandy brought a life threatening storm surge along the 
Mid-Atlantic coast and areas northward, including a surge of up 
to 11 feet in the Long Island Sound. The massive storm's 
maximum sustained winds were 90 miles per hour, with hurricane 
force winds extending outward approximately 175 miles from the 
center and tropical storm force winds extending outwards 
approximately 485 miles.
    According to FEMA, Superstorm Sandy's wind, storm surges 
and flooding hit 12 States. More than 8 million people lost 
power. Transportation systems in New York, Philadelphia, 
Boston, and Washington, DC, shut down, and over 12,000 
commercial flights were halted. Communities up and down the 
coast were battered.
    The Federal Government has a responsibility to help in the 
recovery effort. Initial estimates from New York and New Jersey 
alone of disaster assistance total more than $70 billion, a 
staggering number.
    Sandy demonstrates clearly why it is so important to move 
forward with our WRDA bill. I have been working with Senator 
Vitter in particular, who will become the new Ranking Member, 
of course, Senator Inhofe as well, and all of my colleagues, to 
make sure we can move forward and authorize critical flood 
control infrastructure right now. Because we now have a ban on 
earmarks, it has confused the way we can write this bill. But 
we have figured it out, working together, how we can get the 
Corps authorized to move forward.
    There is a new title in our draft WRDA legislation, and we 
call it Extreme Weather and Disaster Mitigation, which will 
help us to better prepare and reduce risks, whether those risks 
are in the Northeast or in Louisiana or in inland States or on 
the West Coast. Because they are everywhere.
    More frequent extreme weather events have become a reality, 
as our climate continues to change. We have to build 
infrastructure needed to protect our people, our communities, 
and our economy. Following Superstorm Sandy, Governor Cuomo 
stated, ``Part of learning from this is the recognition that 
climate change is a reality, extreme weather is a reality. It 
is a reality and we are vulnerable.''
    I wanted to state this is just a little bit of a different 
hearing this morning. Because we are really basically making a 
record, and I was going to call on Senator Inhofe. I don't know 
if he is on his way, but he is not at this time. So what we are 
going to do is hear from, first of all, our own colleagues on 
this Committee who experienced real problems from the storm. So 
we are going to give Senator Carper--I am sorry? Senator 
Vitter, did you want to make an opening statement in lieu of 
Senator Inhofe? Go right ahead.

            OPENING STATEMENT OF HON. DAVID VITTER, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. I will be very brief, particularly since I 
may have to leave when the hearing is still proceeding. But I 
wanted to be here for three reasons. First of all, to express 
our strong support for all of the victims of Sandy, for our 
colleagues who are directly affected, and to commit to work 
with them on their clear and immediate needs. I know there are 
a lot there.
    Second, to hear what some of those major needs are, besides 
the obvious FEMA recovery effort, which is ongoing, 
particularly the flood and storm protection needs. And third, 
to begin to explore together ways we can expedite that process. 
After Katrina, because Katrina was so big, we expedited a lot 
of Corps requirements, NEPA and other requirements, both 
through congressional action and executive order. And it 
absolutely made a critical difference, and there was no 
negative environmental impact that has been noted or documented 
in any way.
    I think we need to learn that lesson for Sandy. I think we 
need to learn the lesson more broadly and see how we can 
reasonably expedite important action on an ongoing basis. I 
look forward to working with all my colleagues on that.
    Senator Boxer. Senator, I am very pleased that as you know, 
we have this new section of our bill that does deal with 
exactly that. We have been working very closely with your staff 
because you are right, we cannot have a halt to fixing our 
problems when there are 10 different laws that they have to 
comply with. So we need to streamline that.
    So here is what we are going to do. We are going to hear 
from Senator Carper for 10 minutes, Senator Lautenberg, if he 
is here, for 10 minutes, Senator Cardin for 10 minutes, Senator 
Whitehouse for 10 minutes, Senator Gillibrand for 10 minutes. 
So our Committee clearly had--so many of our members have felt 
the impact of this superstorm.
    So let's start with you, Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Madam Chair, thanks very, very much to you 
and to our colleagues, and to members of our staffs for holding 
this hearing this morning, and for giving us an opportunity to 
share with all of you some of what we have been through.
    Massive impacts of Hurricane Sandy continue to be felt by 
many people up and down the East Coast and to the Northeast. 
The images of destruction have been heartbreaking to witness in 
my State and certainly in other States, especially to the north 
of us. As I have traveled through Delaware, during the storm 
and after the storm, I have seen that aftermath first hand, and 
we still see it.
    I also saw people, though, from all walks of life, pulling 
together, helping one another and taking care of one another, 
their neighbors. I am grateful for the opportunity to share 
with all of you some of what I have seen in our State since 
Hurricane Sandy came calling.
    Perhaps most importantly, this hearing will help Congress 
to understand what we must do to help our States come back 
stronger and to better protect us from other storms in the 
future.
    A while back, I was talking to with a good friend of mine, 
and I asked how he was doing. His response was, ``Compared to 
what?'' And that is really a good way to look at how Sandy has 
affected us in Delaware--compared to our neighbors to the 
north, we are doing OK. But Sandy didn't spare Delaware by any 
measure. And we have real needs that are beyond our State's 
ability to provide.
    From the moment it was clear that we were in the storm's 
path, I have been grateful for the work of Governor Jack Markel 
and his entire team. State, county, local officials, first 
responders, American Red Cross, Delaware National Guard, State 
police, utilities, many volunteers, all helped to protect 
Delaware's residents and businesses from the storm as it 
approached and until well after it had passed.
    President Obama, FEMA, the rest of the Administration's 
team also offered their terrific response, working hand in 
glove with our State team. In this case, there was really a 
team. And as I like to say, there is no ``I'' in the word team.
    I should add that the Army Corps of Engineers has been 
particularly helpful in preparing us for and responding to 
Hurricane Sandy. Over the years, funded by a combination of 
State and Federal dollars, the Corps has built a series of 
storm protection projects in Delaware, in the southwest, and in 
Maryland, but wide, robust beaches and a strong, healthy dune 
system. These types of projects have been criticized at times 
by some, unfairly in my opinion, because they performed 
exceptionally well during Sandy, likely sparing us hundreds of 
millions, maybe billions of dollars in damages.
    Natural protection, like these beaches, withstand storm 
surge and sand better than dykes or seawalls, while also 
enhancing the environment. Although the Corps' projects on our 
coast did their job, they were weakened by this storm and now 
require repairs so that we are not vulnerable to future storms.
    Unfortunately, the Northeast and Mid-Atlantic are expected 
to see more frequent and larger storms like Sandy in the 
future. That is why we need to find cost effective ways to 
ensure that such projects will continue to protect lives and 
property.
    We also need to look into other adaptive measures. 
Wetlands, oyster beds, and seagrass, they are cost effective 
and can be sustained for years to come. We can also get better 
results for less money if we allow States more flexibility in 
managing sand from different sources along their shorelines as 
a complete sediment system instead of as an individual project. 
This strategy is called regional sediment management, and is 
one that I think deserves more attention.
    Madam Chair and colleagues, I think you have included some 
of these strategies in your draft water resources bill, which I 
appreciate, and I hope we can address that later this year. 
Unfortunately, other areas of Delaware weren't as well 
protected and saw significant damage. I want to take a look at 
some photos. The first photo, this is a new bridge over the 
Indian River Inlet. The Indian River Inlet connects the 
Atlantic Ocean to the inland bays of Delaware. That is a new 
bridge; we spent over $200 million on that bridge in the last 
several years. A lot of Federal money, quite a bit of State 
money.
    This is the old bridge. It disappeared. It is gone. These 
are the highway approaches to the old bridge. They are gone. 
Four months ago, that was how people made their way up and down 
the East Coast, over State Route 1. Today, that bridge is 
completely gone, along with the highway approaches.
    And this new bridge, the approaches to the new bridge are 
threatened. We want to make sure, having made a $200 million 
investment of Federal and State moneys, that we don't lose the 
bridge. I am told the bridge could actually work underwater. 
Unfortunately, you can't get to the bridge if it is underwater. 
And the beaches that used to be over here to the east to 
protect the beaches and dunes that used to be there to protect 
the highway approaches to the bridge are gone. And they need to 
be replaced.
    In addition, a huge breach--travel up, if you will, travel 
up the road to the Delaware Bay toward the Delaware River. I 
want us to take a look at a couple of other photos. But just 
north of a town called Lewes, some of you have been to Lewes, 
beautiful town just north of Rehoboth, we have a huge, 10,000-
acre-plus national wildlife refuge. It is called Prime Hook. 
And it is an important and maybe irreplaceable part of the 
migratory flyway and one of the only places in the world where 
horseshoe crabs come ashore to spawn and to leave their eggs.
    Severe dune breaches--on the right of this photo, that is 
the Atlantic Ocean, or the Delaware Bay. This is the Prime Hook 
Refuge; it is a big refuge. And that is a modest breach in the 
dune system which allows the ocean, if you will, to come into 
the refuge.
    Let's look at the next picture. This is that same refuge, 
Prime Hook Refuge, the top part of the picture. This is that 
dune breach. What used to be a wildlife refuge is now becoming 
a lake. Water has surged through the expanded dune breaches, 
and is turning a freshwater refuge into a saltwater marsh.
    There used to be a road that went through there and 
connected the western part of our State to the shore 
communities. That is the road today.
    We have also experienced widespread damage to stormwater 
systems throughout our State, dykes, dams, as far north as 
Delaware City and Newcastle. Roads and bridges in various parts 
of our State have been damaged or washed out and will need to 
be repaired or replaced. Meanwhile, we continue to work with 
FEMA, with DEMA and localities and other agencies to determine 
the full extent of the damage.
    Delaware and its local jurisdictions already have 
contributed a large amount of resources in a very short period 
of time to prepare for and respond to this storm, and to begin 
rebuilding in its wake. Preliminary damage assessments show 
that more will be required, and given an already strained State 
budget environment, Delaware will need help in filling in the 
gaps in funding, much as the Gulf Coast States needed following 
Katrina.
    Madam Chair and colleagues, to you and our other 
colleagues, I just want to say thanks for the chance to share 
some of this with you today, to let you know about some of the 
impacts of the storm on our State. In Delaware, we have a long 
tradition of helping our neighbors, whether they live down the 
street or well beyond our borders. For years, we have helped 
other sister States that have suffered from disasters, be they 
hurricanes, be they tornadoes or floods, or wildfires.
    Today, the shoe is on the other foot. We need the help of 
our neighbors, not just in Delaware, not just on DelMarVa, but 
all across the country. Just as we have been there for them in 
their hour of need, we hope that they will be there now for us, 
for Maryland, for New Jersey, for New York and other hard hit 
States as well. Those of us in Delaware look forward to working 
with all of you, and with the Obama administration, to enable 
us to recover and rebuild as well as to better protect 
ourselves from the ravages of future storms that are likely to 
come our way.
    Thanks so much.
    Senator Boxer. Thank you very much, Senator.
    Senator Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Thank you, Madam Chair.
    First, let me ask consent that my entire statement be 
included in the record.
    Senator Boxer. Without objection.
    Senator Cardin. Thank you so much, not just for convening 
this hearing, but for your leadership in dealing with these 
issues, not only in responding to the needs of the communities 
and individuals who are impacted by the severe weather events, 
but your leadership in directing this Committee to look at ways 
in which we can make our communities less vulnerable.
    Sandy was a devastating storm; 80 lives lost as a result of 
the storm, 7 in my State of Maryland. Eight million people on 
the East Coast of the United States were at some time without 
power as a result of Sandy.
    Maryland fared much better than our surrounding States. We 
sent a lot of our resources to help our friends in New York and 
New Jersey and other States that were impacted. But it was a 
severe storm for the people of Maryland. The amount of high 
sustained winds was unprecedented in our State. Seventy mile an 
hour winds were hour upon hour upon hour doing incredible 
damage to our State.
    Heavy rains, we had record number of amount of rains from 
the storm, 9 inches in our coastal areas. That caused extreme 
coastal flooding. The storm surges were severe, and the waves 
were as high as 7 feet.
    I want to talk specifically about two regions of our State 
in which the people today are still trying to recover from the 
severity of this storm. One is Western Maryland. While we were 
experiencing 9 inches of rain on the east coast of Maryland, on 
the western part of our State, in the Appalachians, they had 
this blizzard that occurred that dumped 30 inches of wet snow.
    Talk about one county, Garrett County. Garrett County is a 
county located in Appalachia, somewhat remote, in the 
mountains. Total population of 30,000 people. Fifteen thousand 
homes were without power. You can do a little bit of 
arithmetic; that is every home in that county. Three thousand 
trees were down in that county as a result of the storm. People 
living in remote areas, not easy to get to, without power, 
extremely vulnerable to their public safety.
    Maryland devoted the Maryland National Guard, made it its 
top priority, 40 personnel, 26 Humvees, worked to save lives, 
and they did an incredible job. We are very grateful for their 
very heroic activities in saving lives and trying to bring 
people into a more normal existence.
    At the other end of my State, on the Eastern Shore of 
Maryland, they suffered a different type of damage as a result 
for Sandy. As you know, the Eastern Shore is pretty flat, 
pretty much at sea level. When a storm like Sandy approaches, 
it causes severe flooding.
    In Somerset County, the people of Crisfield were severely 
impacted with the loss of their homes, their businesses; the 
agricultural crops were ruined. And this is a very vulnerable 
community, Madam Chair, 32 percent of the people live below 
poverty. They don't have a lot of options. They don't have the 
resources to be able to take care of their needs without 
assistance from government. And I am very proud of the 
leadership of our State in trying to help those individuals and 
the entire team that worked on this.
    Many of you are familiar with Worcester County, it is where 
Ocean City, Maryland, is located. Nine point 8 percent of the 
population of Worcester County is below poverty, and they have 
twice the number on average of elderly that we have in our 
State. They were particularly impacted by this storm.
    Thanks to the extraordinary leadership of Governor 
O'Malley, our Maryland Emergency Management Agency, MEMA, and 
the full partnership that they brought into being, including 
our State and local officials, we had extraordinary leadership 
from our county executive, the Maryland National Guard; I was 
with them throughout the storm, they deployed the people where 
they were needed, they worked around the clock, they saved 
lives.
    I want to thank the Red Cross also; I had a chance to visit 
with them. They were there helping us, and as soon as we were 
stabilized, they moved on to the next community that could use 
their resources. We saw extraordinary efforts by our first 
responders and by ordinary citizens that helped save lives.
    We had evacuations, in Queen Anne's County, Anne Arundel 
County, Harford County, Baltimore County, Baltimore City, 
people were evacuated from their homes. Forty-one shelters were 
established; 1,000 citizens were housed in these shelters.
    The bottom line is that we can't handle this on our own. I 
just want to underscore the point that Senator Carper made, we 
as a nation have come together to communities that have been 
impacted by these types of events. We have used the Federal 
Government and its resources to help bring those communities 
back to where they need to be. We were very much in tune, as 
disasters have happened in all parts of our country, to be a 
good neighbor. We need help today.
    I want to thank President Obama for the disaster 
declaration for Maryland that allowed FEMA to be available for 
public assistance. We have a request in for individual disaster 
assistance for the individuals who are impacted. That proposal 
is still pending. I am going to be working with Governor 
O'Malley to make sure that the individuals who have been 
impacted by this storm have as strong a partner from the 
Federal Government as we can possibly have.
    Madam Chair, I think it is going to be highly likely that 
we are going to have to pass a supplemental emergency 
appropriation bill. I know that is not in this Committee, but I 
do point out that we have to make sure that the resources are 
available. Congress will shortly be adjourning; I hope that we 
will pay attention to that during this session of Congress to 
make sure that the Federal agencies have the resources they 
need to be able to deal with the consequences of Hurricane 
Sandy.
    From this Committee's point of view, we need to take a look 
at the environmental impacts. There have been numerous oil 
spills as a result of Sandy that are having an impact on our 
environment. We have had major problems on our shorelines, and 
we are going to need to take a look at shoreline restoration 
and other issues. I would urge our Committee to be prepared to 
deal with those issues.
    As the Chairman pointed out, we have to deal with the 
funding of storm infrastructure. You are absolutely right. Our 
first obligation now is to make sure the people who are 
affected and the communities that are affected, that we do what 
we can to bring them back to where they need to be. But we also 
need to deal with the public safety issues, because these 
events are going to be occurring more frequently in the future.
    Let me just give you one example. We have invested in 
Assateague Island. Assateague Island has been widened, the 
beaches have been replenished because it acts as a natural 
storm break to Ocean City, on which there are lots of people 
who live, have homes, et cetera. It worked, Madam Chairman. 
Assateague Island worked. It prevented a lot more damage that 
would have otherwise occurred. I know it is an investment. And 
sometimes people wonder why we make those investments.
    But we make those investments to save lives and property, 
and it did work. So I am going to be coming back to my 
colleagues and telling you that we need to invest in those 
types of common sense ways that we can deal with the realities 
of severe weather. And we also need, Madam Chair, the Water 
Resources Development Act, the WRDA bill, I know you had a 
hearing on that, we need to move that forward. That provides 
areas where we can help with the necessary infrastructure to 
deal with flooding and storm damage.
    I have introduced the Water Infrastructure Resiliency and 
Sustainability Act to provide funding to communities for 
projects such as reducing flooding in vulnerable communities. 
That deals with particular those communities that have sea 
level issues. The sea level is rising. And we have to deal with 
that in the way that we provide support to our local 
communities.
    As I said before, our first priority is to help the 
affected communities and individuals to make sure that they get 
the help that they need. But I would implore my colleagues to 
addressing the problem. The frequency of these severe storms is 
increasing, and we can ill afford to neglect the safety that is 
posed by these storms. Long-term safety must be our focus if we 
are to protect our natural environment and the health and 
safety of our citizens.
    [The prepared statement of Senator Cardin was not received 
at time of print.]
    Senator Boxer. Thank you so much, Senator.
    I want to say, while Senator Vitter is still here, I know 
he needs to go soon, that he and I have discussed bringing the 
WRDA bill forward within the first--well, we are hoping within 
the first 30 days. That is our goal.
    So we really are going to work, and we have been working on 
this, so that we don't waste any time, given what we have seen. 
I think we are going to have a really strong partnership on 
this.
    So we are going to go to Senator Lautenberg for 10 minutes, 
then Senator Whitehouse, then Senator Gillibrand.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you very much, Madam Chairman.
    I think the fact that we are bringing notice about our 
particular storm situations, but highlighting the fact that 
across this country, there is no State spared. The more we get 
the word out, and get an understanding of this thing, and the 
more we cooperate one with another on the Senate and the 
Congress, the better chance we are going to have to improve the 
damage resulting from these storms, and make life a lot better, 
easier, and safer.
    I have spoken on the Senate floor and before this Committee 
to outline what happened in my home State of New Jersey, 
brought on by Superstorm Sandy. The human toll of this storm 
defies description. Roughly 8 million households throughout the 
region lost power during the storm, including more than 2 and a 
half million in my State alone.
    FEMA estimates the total number of buildings damaged at 
nearly 72,000. There are storefronts, offices, restaurants, 
public buildings, homes, and it is pretty hard to imagine what 
life is like when your home is gone. Because it is not simply 
the physical possessions, it is the memories, the memorabilia; 
it is the history of a house.
    Imagine these things disappearing in front of you, things 
which represented your dreams, aspirations, reduced to rubble. 
Imagine having to evacuate and coming home to find nothing 
there. The place where you raised your children, created so 
many memories, gone. That is the reality for far too many New 
Jerseyans. So as we move forward, we must make sure that when 
the next storm strikes that this doesn't happen again.
    Madam Chair, thank you for your leadership on this issue.
    But we know that none of us is safe if one of us isn't. And 
we learned a valuable lesson from this storm, but we learned it 
the hardest way. When we don't invest in infrastructure, we 
leave our communities and our residents in grave danger. That 
is why in the wake of this storm, we are working not only to 
recover but to build stronger so that we are better prepared 
for the next storm.
    Today, I would like to take the opportunity to highlight 
four areas that were vulnerable before the storm and that we 
have to go and rebuild stronger: flood control projects, water 
infrastructure, transportation systems, and of course, 
Superfund sites which unfortunately New Jersey has the largest 
number. So the problem is huge.
    I will begin with our coast, where storm surges destroyed 
neighborhoods, ruined businesses, displaced families. We found 
that even among the damage, however, there is a silver lining 
that points to what we can do to devote resources now and into 
the future--it is so simple, beach and dune replenishment. We 
have been chided about that over the years. Is it just so you 
can have nicer, more comfortable beaches? No, this is part of 
nature's balance. And when the dunes are in place, the damage 
is substantially less. We have seen that, and it was quite an 
awakening.
    In many towns across the country, the Federal Government 
has invested in levees and other infrastructure to protect 
against storms and flooding. In New Jersey, the beaches are our 
levees. They act as critical buffer zones that protect our 
communities from flooding. In beach replenishment projects, 
sand is brought in to either widen existing beaches or 
strengthen dunes in order to provide better protection against 
storm surges.
    Up and down our Jersey coast, we saw that homes that were 
behind these dunes that had been built up by the Army Corps, 
replenishment projects were still standing after the storm, 
even when nearby homes without these projects were totally 
destroyed. And we see the stark contrast on the barrier island, 
the barrier island that we have in New Jersey called Long Beach 
Island. In the Long Beach Island community of Colgate, which 
didn't have an Army Corps project, homes were destroyed. We see 
one of these homes in this picture.
    Without the Army Corps projects, when you look at that 
picture, to this image of homes that were shielded by beach 
projects in Brant Beaches on this barrier island there are 
several communities, another community on Long Beach Island, 
and you see how well they withstood the storm. And here is 
where the storm lost its fury, much lower than the houses were 
located.
    This picture shows how the dune was constructed so that it 
could absorb the storm's force, protecting the homes in the 
neighborhoods behind it.
    Overall, New Jersey's initial estimate says that damage to 
the entire State is at least $29 billion, with costs expected 
to rise. And our Governor, who did a wonderful job in the 
management of this crisis, brought in additional costs that 
they are still uncovering. So it will be higher than that.
    But we could have avoided some of that damage if we had 
invested in advance. Army Corps beach projects protect 
taxpayers by preventing the kind of storm damage that FEMA is 
now paying to clean up, and at a fraction of the cost.
    So I am pleased that Chairman Boxer's draft WRDA bill 
included a program that I requested to allow new projects to be 
constructed following a natural disaster. I intend to work with 
the Chairman, Chairman Boxer, to charge the Corps to rebuild 
damaged beaches, dams, or levees better than they were before, 
as opposed to the current practice that the Corps has of merely 
repairing or rehabilitating a project to its pre-storm 
condition.
    During Sandy, we also saw outdated water infrastructure 
lead to failures in two of New Jersey's largest wastewater 
treatment facilities, releasing millions of gallons of sewage 
into the bay and rising river as a result. The infrastructure 
in its entirety has to be in concert with what we now know and 
can do in advance of these tragedies. Although the sewage spill 
has now been contained, the fact that this breach happened in 
the first place shows the vulnerability of our infrastructure 
and the urgent need to rebuild better and stronger.
    And with New Jersey, and the entire country, water 
infrastructure is in bad need of improvement and repair. We 
must get a significant investment moving forward. Our 
transportation network suffered unprecedented damage as well. 
Highways, roads, this storm covered everything. We are damaged, 
littered with debris. The Holland Tunnel carries thousands of 
vehicles each day from New Jersey into New York City; it was 
flooded. That transportation is an important part of our 
economy and our culture in that region.
    The damage to our highways and transit system caused severe 
congestion, stranding New Jerseyans and creating delays for 
miles. As many learned during this storm, transportation in New 
Jersey has an impact on more than just New Jersey residents. 
Sandy affected anyone who rides our rails, rides through our 
State, or uses products that come from our ports.
    So I am going to be working with this Committee--I look 
forward to it--to rebuild New Jersey's transportation 
infrastructure to make it stronger and more resilient, in 
addition to bettering our infrastructure in at least two cases, 
flooding from Sandy, damage to the Superfund sites. As I 
mentioned, in New Jersey, leading the potential for releases of 
toxic pollution into the environment. That is why I have a 
letter on the way to EPA to conduct a thorough investigation of 
the storm's impact on sites throughout the region.
    Today also I am introducing a Superfund Emergency Response 
Act, which requires EPA to perform an assessment of Superfund 
sites following any natural disaster, and allows Congress to 
appropriate that emergency funding to remediate any damage or 
toxic release. The bill will also require EPA to come up with a 
plan that better protects Superfund sites that are terribly 
vulnerable to future disasters.
    Last, as we continue to survey the damage, we have to 
remember that Superstorm Sandy is only a sign of things to 
come. In this changing climate, and the reluctance here in this 
Committee to look at the changes in global temperature, it is 
very difficult to understand. The intensity of weather like 
Sandy, there is more and more to come. And over the coming days 
and weeks, we will have the opportunity in this Committee to 
make sure that the Northeast recovers and rebuilds in just that 
way.
    I thank my colleagues, all of them, who have taken an 
interest here, in sharing the experience, unfortunately, that 
we learned. Thank you.
    Senator Boxer. Thank you, Senator.
    Senator, I think that legislation you describe is very 
appropriate. I am looking forward to reading the details and 
helping you get it done.
    Senator Whitehouse.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Madam Chair. I will be 
briefer than my colleagues, because I was here for an earlier 
hearing and had a chance to make a similar statement. So I 
don't want to be too redundant.
    Hurricane Sandy hit Rhode Island, it hit Rhode Island hard. 
The 9.5 foot crest at Fox Point, tidal crest at Fox Point, was 
the fifth highest ever on record. And we have 130,000 homes and 
businesses lose power, which is a significant portion of a 
State of 1 million people.
    The southern coast of Rhode Island was hit the hardest. 
This is the westerly coast, this is Misquamicut. And you can 
see how the hotels and restaurants along the shore were really 
clobbered by this. I can remember walking around and seeing, 
coming up onto the beach, jalopies, vehicles from the 1930s and 
the 1940s that had been buried those decades ago to hold the 
beach intact. And now for the first time since then, all the 
tearing up of the beaches has exposed them, like old cadavers 
from a Hollywood movie coming out of the beach.
    Let's go to the next one. This is the road at Connecticut 
Avenue that goes along Misquamicut Beach. The sand from all 
that disturbance was piled up chest high, and we are still 
actually literally digging out from that sand. The damage went 
back in the neighborhoods behind this commercial street, 
several blocks back. It was a very considerable blow.
    Now, mercifully, a lot of these businesses are seasonal 
businesses. And the spirit there is fantastic about getting 
back and getting up and getting running. The local chamber of 
commerce is already taking up local collections to help their 
business colleagues get back in operation in time for our next 
summer season. So we hope we will be able to greet Rhode 
Island's tourists with a wonderful set of restored beaches. But 
it is going to take some help.
    Let's go to the next one. This is further east at 
Carpenter's Beach, where these houses have gone right into the 
water. They may not look like very big houses, but Senator 
Lautenberg spoke about the memories involved. These are houses 
that families have had for three and four generations. And as 
you can see, they are close to each other. This is a very tight 
summer community.
    So the emotional blow, in addition to the financial and 
physical one, is really very considerable.
    The gentleman here in the green jacket is somebody very 
familiar to this Committee; he used to be a member of it. That 
is Governor Lincoln Chafee, who was with me, touring the 
damage. The lady--I think it was the lady who owns this house 
right here that he is looking into--told me that when she was a 
child, their house had a big lawn, and then there was a 
roadway, and then there was a parking lot, and then there was a 
beach. And the beach was so long that she can remember having 
to hustle across it because of the hot sand burning her little 
feet, rushing to get to the water. But it was a long haul.
    So there has been an enormous amount of beachfront lost 
that is really a systemic problem in the Northeast, and 
particularly in Rhode Island.
    So we also toured Narragansett, Rhode Island, where this is 
an absolutely iconic, wonderful restaurant out at the point 
called the Coast Guard House. It was washed right through, 
mercifully structurally it appears to be sound. But it is going 
to need a complete rebuild. I know the owner, and my guess is 
he will probably be back in operation for a New Year's party, 
because he is pretty energetic.
    But there is a lot of damage. The seawall, the sidewalk, 
this is big for Rhode Island. Because we have tourism 
generating more than $2.3 billion, that is the Rhode Island 
Economic Development Corporation number, 10 percent of State 
and local revenue is tourism related, 5 percent of our gross 
State product is tourism related. It is our fourth largest 
industry, and in 2009 supported more than 60,000 jobs. So the 
economic effect of this is very, very considerable.
    I am delighted that the Chairman has held these hearings, 
because I think it is important that there be two key points 
drawn from it. One is that there is a new normal of new 
extremes. We have to be prepared for it. The infrastructure for 
the past is no longer adequate for the new normal of new 
extremes that we are now facing.
    The reason that we have this new normal of new extremes is 
because global climate change is happening and is real. We have 
tolerated the deniers for far too long in this body. The public 
is with us, the science is clear, our national security 
establishments, our business communities all know that this is 
real. There is a rear guard action in this building, led by 
polluters, to try to prevent us from taking action on this.
    But we have to face the fact that the deniers are wrong. 
They are just plain, dead wrong. Whatever their motivations may 
be, and that is a separate question, they are wrong. And we 
have to deal with that. And I think some of the courtesies that 
we have given to one another collegially really have to yield 
to the fact that some of the things that are being said in the 
Senate and occasionally regrettably in this Committee chamber, 
are just plain wrong. Sandy shows the price of not being 
attentive to these facts.
    I thank you for your leadership, Madam Chair.
    Senator Boxer. Well, Senator, I want to thank you for your 
remarks. I feel as you do, that the clock is ticking, and 
Hurricane Sandy has shown us all what the scientists sitting 
right in this room, the day I got the gavel, they all were 
sitting right there. And they told us exactly what would 
happen, and it is all happening. And you can close your eyes 
and cover your ears and put a pillow over your head, but anyone 
with a heartbeat and a pulse can tell that things are changing. 
You are right. And we are going to do everything we can to make 
progress.
    I do want to make one point. President Obama's policies 
have reduced the carbon in the air, and will over the next many 
years. The amazing work that he did with all of us on fuel 
economy standards and enforcing the Clean Air Act, which I just 
want to say to my colleagues who are here, and unfortunately 
those who are not, I can't address them. If they were here I 
would address them on this. The colleagues here and others in 
the Senate chamber stopped many who tried to roll back the 
Clean Air Act, as it pertained to emissions that were coming 
from utilities and other polluters.
    That was critical, because we want to be much more direct, 
you and I, Senator Whitehouse, I don't speak for anyone else, 
on how we approach this. I just feel people have to understand 
that the progress that we made, and we have initial studies 
that show the progress we have made, only because we fought so 
hard against rolling back what my colleagues on the other side 
have tried to do on the Senate floor, with environmental rider 
after environmental rider. And if they don't see from Hurricane 
Sandy, I have to call it Superstorm Sandy, the future, if we 
just blithely go along, then I am very disturbed for our 
children and our grandchildren.
    I just want to thank you, Senator Whitehouse, for your 
amazing leadership on this, day after day. People don't know, 
every time you see me, you are pushing so hard. And I so agree 
with you. With your determination, Rhode Island, you said, the 
people are very determined. Well, they have a great Senator who 
is determined. I know we will make more progress.
    Senator Whitehouse. Thank you, Madam Chair.
    Senator Boxer. OK.
    Senator Carper. Madam Chair.
    Could I just add to something you and Senator Whitehouse 
have said? We held up some photographs earlier of the Prime 
Hook National Wildlife Refuge. If you will hold them high, we 
are looking to the west here. Prime Hook used to be a 
freshwater wetlands and refuge. Now it is largely saltwater 
that reaches here. The bottom part of the picture is the 
Delaware Bay and just to the south, the Atlantic Ocean.
    There is a road that you can barely see up there, maybe in 
the top corner. But there is a road called Prime Hook Road that 
comes from west to east, and it meets the Delaware Bay. That 
road is underwater quite a bit of the time now. But it used to 
be you could drive out Prime Hook Road, driving toward the 
east, toward the Delaware Bay, and as you got to the Bay there 
was a big parking lot where people could park their cars or 
their boats or their trucks or whatever. Today there is no 
parking lot, it is all underwater. You can look out, you stand 
there looking to the east where the parking lot used to be, 
just to the right about 1 o'clock you can see what looks like a 
concrete bunker, part of it sticking up out of the water. That 
concrete bunker used to be 500 feet west of the dune lines, 
used to be 500 feet west of the dune lines.
    You have heard me quote here with tongue in cheek that 
famed California climatologist, Stephen Stills, who once said, 
something is happening here, just what it is ain't exactly 
clear. It has gotten a lot clearer in the last several months. 
My hope is that others will see that, too.
    Thanks very much.
    Senator Boxer. Well, thank you so much. We are going to 
call on Senator Gillibrand, followed by Senator Jack Reed. We 
are so happy, Senator Whitehouse just opened the door for your 
testimony. We are just thrilled that you are here.
    But Senator Gillibrand, you and I talked during Superstorm 
Sandy on the phone. I know the burden that you were carrying, 
along with all my colleagues here. I just want to say that the 
citizens of New York are so lucky to have you and Senator 
Schumer and others just carrying the weight of Superstorm 
Sandy, so that we can fix this and do some mitigation, so we 
don't see this again.

         OPENING STATEMENT OF HON. KIRSTEN GILLIBRAND, 
            U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator Gillibrand. Thank you, Madam Chairwoman, for 
holding this hearing today. I can't tell you how important it 
is for the Congress to understand the depth and breadth of this 
storm and what impact it has actually had.
    I also appreciate all the kind words and your call in the 
middle of the storm, giving your condolences for the victims 
and for the families that were suffering.
    I also want to thank my colleagues who will be appearing 
before this panel later in this hearing, Senator Schumer will 
come in, who has been a stalwart advocate for New York, and the 
rest of our delegation will come in as well. So I just want to 
thank you for giving us the opportunity to tell the stories of 
what has happened to our families in New York.
    Just over a month ago, Superstorm Sandy ravaged the 
Northeast. It left a path of destruction that cut across the 
most densely populated region of the country, unimaginably 
altering the lives of tens of millions of people. In Sandy's 
wake, more than 40 New Yorkers died. Millions more were left 
with significant damage to their homes and neighborhoods, their 
businesses, their families.
    Now, as New Yorkers, we have been reading the stories and 
seeing it on the news, but for the rest of Washington, the 
stories of heartbreak are unimaginable. The most heartbreaking 
story was when I went to Staten Island, and we met with first 
responders whose job was to find two children. What happened in 
this case was, a mother was worried because she had lost power 
and her husband told her to find a different place to stay with 
the children and urged her to go to Brooklyn to see her mother.
    She took the children in the car, but what happened in 
Staten Island is the storm surge was so severe, a 10-foot wave 
came across the road, her vehicle stalled, she took her 
children out of the car, she tried to get them to higher land 
and they were taken from her arms. These children were 2 years 
old and 4 years old. And the mother could do nothing about it 
because the storm was so strong.
    Now, she is just one story of many of families who lost 
their lives because of this storm. And I can tell you, our 
Mayor and our Governor worked so hard to evacuate families. 
They evacuated families all across New York. And that is one of 
the reasons why the loss of life was as low as it was.
    But for each of these lives that were lost, there are many 
more. Another story that, you think you have a safe place to 
live. In Westchester County, a family had their son at home, in 
his home safe. He had a friend over to help him weather the 
storm. A tree crashed on the home, and the two boys were 
killed, 11 and 13.
    Some elderly couples, they just couldn't leave, they 
couldn't leave in time. An elderly couple in Staten Island 
drowned when the rising tides came into their home and they 
couldn't escape in time.
    So these are just a small number of the horrible stories 
that took the lives of New Yorkers. And I have spent a lot of 
time, as has Senator Schumer and our delegation, visiting with 
the families and helping them to begin to piece their lives 
together.
    It has affected communities all across New York. Each of 
the five boroughs were affected. The Hudson Valley, Long 
Island, the devastation just came across a huge area. We will 
hear from more of the delegation from New Jersey as well.
    So as we begin to rebuild, folks are looking to Washington 
for, how can you help us. I can tell you, we must help these 
families begin to rebuild. The devastation is so severe. For 
New York families, lives have been lost, and homes are 
destroyed, businesses are in rubble. And families have been cut 
off from basic services. One of the big stories across New York 
was how many families were without electricity for so long, for 
weeks. Some still don't have electricity. And obviously as the 
cold of winter continues to come in, we are worried about their 
safety.
    But amid this destruction, I have also had the blessing to 
see what is best about New York, New Yorkers are very strong. 
They are very resilient. Communities have come together to 
rebuild. I can't tell you how many friends I saw helping other 
friends, gutting basements, pulling out destroyed property, 
having all of their belongings in the front of their homes. But 
it was these friends and community members that were giving 
hope to families who had lost everything.
    Now, we have lost, so far, we have had claims for 305,000 
homes that have been seriously damaged or destroyed, more than 
265,000 businesses have been impacted. Thousands of New Yorkers 
are still homeless.
    In the immediate aftermath of the storm, we had 2 million 
New Yorkers lose power. And because some families' homes' 
boilers were destroyed or electrical systems were destroyed, we 
still have many, many homes that do not have electricity today.
    Our Governor has estimated that it will be about $32.8 
billion to begin to rebuild New York. And that is just for New 
York, that is not including the billions required for New 
Jersey and other States.
    So I am going to take you through a couple of other places 
around the State. This is Breezy Point. As you can see in this 
neighborhood, the whole neighborhood was destroyed by fire. It 
was absolutely devastated. Even a member of our congressional 
delegation's home was razed by fire.
    One hundred-eleven homes were destroyed in this particular 
fire and flood; the entire community will have to be rebuilt.
    Since this Committee is so relevant for transportation, I 
want to go through specifically some transportation 
infrastructure, since I think this Committee will be most 
impacted by that request. This is a photo of the South Ferry 
subway station. You can see the water, not very clear, but it 
has literally consumed the whole subway station. These are the 
escalators going down into water.
    This next picture is of the Hugh Carey Tunnel. The whole 
tunnel was covered up to the top.
    This is a picture of rail that was fully washed away. This 
is in Westchester, this is what it looks like normally. The 
water just literally moved the whole tracks off its bearing.
    One of our major areas of jurisdiction is the Army Corps of 
Engineers. They will play a major role in reconstruction of New 
York's flood protection system. Senator Schumer will, I am 
sure, talk more about this. But we have already given them a 
list of projects that they have already authorized, they just 
have never begun. Or some they have started but never 
completed. That is almost a billion dollars' worth of Army 
Corps projects.
    But those are the ones we know we can do, they have already 
been studied. We know they are the most urgent issues.
    I just want to conclude by reiterating to my colleagues in 
the Congress how important meeting the needs of these families 
and businesses is. One of the roles of the Federal Government 
is to keep people safe. And when lives are so destroyed, when 
communities lie in rubble, when families don't know how to 
begin to rebuild, that is really when the Federal Government 
makes a difference. So I just want to urge my colleagues to 
open their hearts, find goodwill, and help restore and rebuild 
New York.
    Thank you, Madam Chairwoman.
    Senator Boxer. Senator, let me just say, you have given us 
the most touching testimony. I thank you because you allowed 
your emotions to come to the surface. You put an amazing human 
face on this superstorm. And we have a lot of work to do. I 
thank you so much.
    I am so proud you are on this Committee. How many times 
have you run in 4 years?
    Senator Gillibrand. Twice in four.
    Senator Boxer. Twice in 4 years. So now you have some time 
to devote full time to this task. I am so pleased that you are 
with us on this Committee.
    I am going to call on Senator Reed, and then Senator 
Schumer. I want to tell them what we did in the opening, since 
we started about a half-hour, no about an hour ago, we heard 
from our colleagues in Delaware, in Maryland, we heard from 
Senator Whitehouse from Rhode Island. We heard from Senator 
Lautenberg and now from Senator Gillibrand. We had so many 
people affected.
    The purpose of this very important hearing today is for 
history, it is for history to record this historic storm. I 
personally believe it will be a turning point, I hope it will 
be a turning point here in our fight to address climate change 
in a way that protects our people.
    So we are going to have this record, you will be part of 
this record. I look at all of you as my eyes and ears. As this 
Chairman, I did speak with Senators Gillibrand and Schumer 
during this devastating event, because my heart ached for the 
people there. I have gone through so many disasters in my 
State, earthquakes, fires, floods, droughts, everything. I know 
it is so difficult to wrap your arms around.
    The one thing Senator Schumer said to me, and has continued 
to say, is how amazing, what a broad swath this disaster was. 
So it is hard to wrap your arms around it, but we will.
    The second reason for this hearing is for legislative 
purposes. We are about to take up a water resources bill. And a 
lot of you know--it has been a while since we have had one. 
Senator Vitter and I are going to work together on it. He is 
going to be the new Ranking, and he is very encouraging about 
this bill.
    So I think we are going to work across party lines on this 
WRDA bill. So with that, I want to again welcome you and call 
on Senator Reed. You each have 10 minutes. Say what is in your 
heart, what you want us to hear, what you want history to 
record about this storm.

                 STATEMENT OF HON. JACK REED, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Reed. Thank you, Madam Chairwoman, for your kind 
invitation to testify today, and for your incredible leadership 
on this issue. I want to recognize obviously my colleague 
Senator Whitehouse, who has been such a powerful force, not 
only dealing with Hurricane Sandy, but so many other issues in 
the State of Rhode Island.
    Later today we will hear from my colleagues in the House, 
Representatives Langevin and Cicilline. They too have been 
actively engaged in weathering the storm and then dealing with 
the after effects.
    Rhode Island suffered significant damage. A major disaster 
was declared in four of our five counties, the south coast of 
Washington County, which includes the communities of Westerly, 
Charlestown, South Kingston, and Narragansett, was pounded 
heavily over several tide cycles. Homes were uprooted, dunes 
were obliterated. Sand was driven back into coastal ponds, 
threw homes onto local roadways, exposing underground pipes, 
septic tanks, and other utilities. Off the coast, near Brock 
Island, the Army Corps Coastal and Ocean System data buoy 
recorded perhaps the largest wave of the storm, 47 feet.
    The island sustained severe road damage, as well as damage 
to its docks. In Middletown, Rhode Island, the Rhode Island 
National Wildlife Refuge in Thatcher's Point received sustained 
significant damage. It is an isolated area, it can't be used, 
because the one access road has been obliterated.
    But despite this damage, we know the outcome for our State 
could have been far worse had the storm followed a slightly 
different track. And our sympathies remain with the families 
throughout the Northeast, so eloquently and passionately 
described by Senator Gillibrand and I am sure also by Senator 
Schumer, who have lost loved ones, who sustained devastating 
damage, who are still recovering. All America, our hearts 
literally go out to them and to their representatives who are 
doing so much to help them.
    In Rhode Island and elsewhere throughout the region, we 
were able to limit some of the losses because we had time to 
prepare. So I want to acknowledge and thank the National 
Weather Service, which produced very accurate forecasts and 
gave emergency planners several days advance warning. I also 
want to commend the Rhode Island Emergency Management Agency 
led by Theresa Murray, the Rhode Island National Guard, 
commanded by General Kevin McBride, and local emergency 
planners for the work they did in warning the public and in 
evacuating areas with the highest risk.
    I also want to commend our utility, National Grid, for the 
planning and the response. They did an extraordinary job with 
crews already assembled and routed before the storm.
    Throughout the response and recovery the support from the 
Federal Government has been exemplary. Whenever the State asked 
for an emergency or disaster declaration, President Obama 
provided, often within hours of the request. Agencies we also 
quick to respond. Within a day of the disaster, Secretary Ray 
LaHood provided $3 million in emergency relief funding to open 
roads in the State.
    As we consider efforts to support the recovery, I would 
note that this was the third major disaster that has hit Rhode 
Island in as many years, reflecting this climate activity which 
is unusual and I don't think will dissipate. We have had 
hurricanes in 2011, 2012, and a major flood in 2010. Each of 
these disasters has affected a majority if not the entire 
State. The size and frequency of these events, coupled with the 
very harsh economic and fiscal climate in the State, has made 
it very challenging for Rhode Island to fund the portion of the 
recovery that they must fund.
    And for this reason, relief in the form of additional 
Federal funding through disaster CDBG funding and Economic 
Development Administration grants, as well as cost share 
flexibility for FEMA assistance, has been important to the 
State in the past and will be again very important for post-
Sandy recovery. In addition, resources to the Department of 
Transportation's emergency relief program will be essential to 
fully restore the roads damaged in the storm.
    As we move through recovery and into long-term mitigation, 
we should also be mindful of the long-term impacts and 
resiliency of our coast and the impacts of sea level rise and 
global warming. I believe that addressing these challenges 
requires the participation of the Army Corps of Engineers, 
NOAA, the U.S. Geologic Service, FEMA and so many other 
agencies. I think the Chairman has raised the right issue. This 
should be a turning point in our efforts to deal with these 
issues on a comprehensive basis, not on a particularized basis.
    There are smaller measures, however, that could be taken as 
well. In particular, we should not ignore the Army Corps' 
continuing authority program, the CAP program, as part of the 
response. This includes section 103, small beach erosion, 
section 205, flood control, and section 206, environmental 
restoration. For States and communities with limited resources, 
these smaller scale projects can be enormously beneficial and 
effective, particularly after disasters.
    I appreciate the steps that have been taken in the draft 
reauthorization of the Water Resources Development Act to 
utilize CAP authority for post-disaster assessment and 
projects. I also want to acknowledge the Committee's efforts to 
increase the per charge cost limitations for some CAP 
authorities. These are positive measures that we should work to 
expand upon.
    Before I conclude, I want to note the role that previous 
Federal investors have made in limiting damage. We often 
overlook prudent steps that are taken before a storm that pay 
off significantly. First, the Army Corps of Engineers Fox Point 
hurricane barrier. This project was built about 45 years ago to 
protect the city of Providence from storm surges like those 
that overwhelmed Providence in the hurricane of 1938 and 
Hurricane Carol in 1954.
    Over the last several years, the Army Corps has made 
significant investments to modernize the barrier, ensuring that 
it has been able to operate in events like Sandy and Irene. In 
addition to the investments with regular operations and 
maintenance funding, the infusion of resources under the 
Recovery Act has helped speed repair and rehabilitation of the 
barrier. This has been very important in ensuring that it could 
continue to operate during major storms, literally without the 
Corps' intervention we would have felt very vulnerable to the 
flooding of Providence with catastrophic effects.
    Second, on a smaller scale, a new culvert in Bristol, Rhode 
Island, as part of the flood control project funded by EDA and 
also part of the emergency supplemental appropriations bill of 
2010, helped the town absorb damages. Otherwise, areas of that 
town would have been inundated as they are in every storm, some 
even minor storms.
    So I hope that we follow through with the work of this 
Committee to authorize and to give direction to not only 
remediation and response to standing, but long-term protection 
and restoration of our coastal waters and our coastal areas.
    Again, thank you, Chairwoman Boxer, for what you have done 
this morning and what you will do. Once again, I can only say 
to Senator Gillibrand, Senator Schumer, Senator Menendez, 
Senator Lautenberg, and others, our prayers are with you and 
your constituents. You suffered grievously.
    Thank you.
    Senator Boxer. Senator, thank you so much. We will work 
with you as we get this WRDA bill to the floor.
    Senator Schumer, we are so honored to have you here as well 
to be part of this record. So please, you are recognized for 10 
minutes, followed by Senator Menendez.

             STATEMENT OF HON. CHARLES E. SCHUMER, 
            U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator Schumer. Thank you.
    First, Madam Chair, let me thank you so much for having 
this hearing, for your caring and compassion. As you mentioned, 
you were on the phone with us the minute Sandy hit. I feel so 
good about several in this Committee, many thanks. But the fact 
that you are Chair of the Committee, and you are such a good 
legislator and so compassionate about these things gives us 
some hope. The fact that Senator Vitter has shown an active 
role in many areas and has been through this makes us feel good 
about it. The fact that both Senator Gillibrand and Senator 
Lautenberg are on the Committee, as well as Senator Whitehouse, 
three States affected by the storm, gives us a lot of faith and 
hope in these terrible times.
    Senator Boxer. And without taking any time away, so stop 
the clock, I want you to know that Senator Carper also had 
impacts, and he is on the Committee, and Senator Cardin from 
Maryland. So it is a Committee that really felt the impact of 
Sandy.
    Senator Schumer. Right. Thank you.
    And I just again, I wake up every morning with a little bit 
of a knot in my stomach just thinking about what happened. It 
is devastating. The first day after the storm I flew in a 
helicopter with the Mayor and the Governor. And you could see 
the breadth of the damage. It is so wide, there is so much. 
This island, Long Island, has 7 million people. And many of 
them live right on the south shore, from Seagate to the 
Rockaways and Breezy Point, to Long Beach, all the way up. So 
you saw how broad it was.
    And then for the 2 weeks, as recently as Monday, before we 
came down here, we are touring the areas. And you see the depth 
of it. I was on Staten Island Monday, and met a leader of the 
Marine Corps League, trying to help veterans. He pulled me 
aside and said, I have lost my home, I don't know where to go, 
what to do. He is near tears in his eyes. This is a tough, 
grizzled vet.
    We went to the Red Hook Houses, elderly women, poor women, 
on the 18th floor, stuck for 2 weeks, no elevators, no 
telephone, no cell phone, no electricity, no food, no water in 
the sink or the toilet or the shower. And then you look at just 
practical things. You look at Manhattan over here, and there 
are huge numbers, 20 million square feet of office buildings 
out of commission.
    Our hospital, one of the leading teaching hospitals in the 
world, NYU, they never expected water to be 14 feet higher than 
it has ever been. A billion dollars, they had all their 
equipment in the basement. That is where they were told to put 
it, when you do these CAT scans and radio tomography and all 
this stuff, it has to be very balanced, the machine. So they 
tell them, put it in the basement. All flooded, close to a 
billion dollars of machinery, gone.
    And I could go on and on and on. But we need help. I really 
want to thank you for having this hearing. The storm was an 
unfortunate wake up call, not only to New York and our 
neighboring States, but to the country and even the world about 
what we must do to protect our region, fortify coastlines from 
storm surge activity.
    Simply put, New York has no choice. We must simultaneously 
adapt and fortify our coastline to protect against future 
storms. We are a waterfront city. We are a waterfront State. 
People forget that. But we are basically, the whole southern 
area of New York is three islands, Long Island, Staten Island, 
and Manhattan. On those three islands are close to 10 million 
people, more than most States.
    We are connected by a vast array of hundred year old 
tunnels and bridges that were built long before the word 
climate change, global warming was in anybody's mind. So most 
of our infrastructure has been built without the necessary 
flood protections in their design. Sandy reminded us of a very 
stark reality: we can either invest now, or we will pay later. 
I would argue that a refusal to invest earlier in both dealing 
with some of these specific problems, but also in preventing 
climate change, we are paying. We are paying later, in a sense. 
But there will be many more laters, unfortunately, if we don't 
do anything.
    After touring the damage for the past 4 weeks, we are 
paying later now. And we will keep paying later. Lower 
Manhattan was blacked out for days. The Brooklyn Battery 
Tunnel, longest tunnel had close to 100 million gallons of 
water in it. It was totally flooded from one end to the other. 
Unbelievable, who would have thought it?
    The southern shore of Staten Island, the Rockaways 
battered. Long Beach, 35,000 people, every house flooded. 
Seagate, 8,000 people, every house flooded. The Rockaways, 
100,000 people, most homes flooded. The flooding came in not 
only from the ocean side, but from the bay side. You thought, 
well, I live five, six blocks from the ocean. In Bell Harbor it 
came both ways and met in the middle and many other places as 
well.
    So huge, and to compare it to Katrina, Katrina lost more 
lives. We lost too many lives, but not close to Katrina. But in 
other ways, it is much more devastating than Katrina. Right now 
in New York, 305,000 homes are seriously damaged or gone. 
Kirsten showed the pictures of some of them that are just gone, 
by fire. Because the water systems failed and the wind, then 
the electrical systems got shorted, fire, wind.
    And so 305,000 homes seriously damaged or gone, just in New 
York, up to now. There are going to be more that we will learn 
about, because the flooding is still there in lots of the 
basements. These are low lying houses. There were 214,000 total 
homes gone in Katrina, of the same level of damage. Businesses, 
265,000. This is just New York. Bob will talk about and Frank 
talked about New Jersey, which has similar levels of damage.
    In Katrina, 18,000 businesses. Because of the density of 
the population, it is a much greater economic impact on our 
region, of course, and on the nation than otherwise.
    So despite all this pain, we can't entirely fault those who 
came before us for building this great metropolis without 
adequate flood protections. The threat was not the same. The 
technology of flood protection was not what it is today. And at 
the same time, we know that the 105, 100 year floods were rare 
events. And now they are every few years.
    So where does that bring us? In the days since Sandy, much 
has been made about what future flood protections New York 
needs to adapt to the new 21st century climate. Three are a 
vast array of opinions and ideas, from one extreme to the 
other. And I commend my colleagues in government and academia 
for having the courage to think outside the box in advocating 
for the future New York.
    Some preliminary research has suggested a Dutch-like system 
of floodgates in New York Harbor as an expensive but feasible 
alternative. Others are pushing for a retreat from the 
coastline. But a retreat is not just a couple of hundred 
houses. It is hundreds of thousands of people. That is a huge 
demographic, anthropological, sociological, and economic 
change. You have to be careful before you just quickly advocate 
that.
    To members of this Committee, I say we should not be 
victims of these two choices only, which may be extreme. So 
today I am recommending to you a comprehensive Federal approach 
to protecting New York's coastline well into the future. It 
consists of three basic principles. To protect ourselves in the 
future, we must accelerate, study, and streamline, and then 
build. We can no longer be burdened by rule that were written 
before massive floods were common and a process that was 
created before storms of the century happened every 10 years.
    First, we must fast track and build projects that Congress 
has already authorized and that the Corps has studied. 
Fortunately, there are a bunch of these projects, and they are 
noted here. Can you see this? Should we hold it up a little? 
These are seven projects already studied and already 
authorized.
    Some of them were rejected by the local communities. Long 
Beach, 35,000 people, none of whose homes were unaffected, they 
were going to build dunes. A small group of homeowners objected 
in 2005, and they didn't do it. But this proposal is there, the 
study is there. I have spoken to the elected officials, the 
city manager, they are ready to go. All we need is funding, 
because they are already authorized and studied.
    And there are other projects as well, on the south shore of 
Staten Island, in Rockaway, Gilgo Beach, Coney Island, Fire 
Island, and Asharoken.
    So this concept referred to accelerate to construction is 
what New York needs now. We estimate the amount of money is 
about $500 million to a billion dollars for these seven 
projects. No red tape, no study, because it has been studied. 
Community support in every one of them. We are going to put 
that in the supplemental bill, but obviously your Committee 
will review it.
    Why do we need it now? Because in some of our most badly 
damaged areas, south shore of Staten Island, Long Beach, 
Suffolk County, you have no protection. A storm, a minor storm 
could come flood again. So we have to move quickly.
    In some places, they wanted to build seawalls, some places 
rock armor, some places dune systems. Along the coast, like 
Midlid Beach in Staten Island, where surges over 10 feet came 
in. And in other coastal areas, Coney Island, the Rockaways, 
Gilgo, some of the projects were even partially built. But then 
there was no funding, and that ended.
    Now, here is the good news. We know from Sandy that many 
places that had engineering protections that the Army Corps had 
designed fared much, much better. Point Lookout, which is right 
here, did much better than the neighboring areas, because they 
actually had Army Corps built-in protections.
    The same, I am told, in parts of New Jersey. So this works. 
So we have requested the Army Corps to accelerate.
    Second--and I will try to hurry this along, Madam Chair--
second, we have to immediately authorize and fund a 
comprehensive hurricane protection study of New York Harbor and 
the surrounding region. These protections aren't enough. We 
need the Army Corps to start right away and do a study. They 
did that in New Orleans, and then they built a series of levees 
and barriers and island dunes and seawalls. They did it in 
Houston. That is why a comprehensive study in partnership with 
the Governors of New York, New Jersey, port authority, MTA, and 
city of New York must commence immediately. We are asking the 
President to put that in the supplemental legislation he will 
introduce early next week.
    There are many ideas out there. And third, we must reform 
the Federal flood protection process that the Army Corps 
currently operates. Let me be blunt: the process in many places 
in many ways is badly broken. Projects take years and decades, 
because of a mound of red tape and lack of funding. Senator 
Vitter has been very active in this area. And he has been a 
vocal proponent for a leaner, more efficient Army Corps. We 
look to work with you, Madam Chair, and him to move forward.
    So if we can do these three things, we can protect New York 
from future devastating storms, we can protect New Jersey as 
well, and we would work with them on that. So I hope that the 
Committee will look favorably on our accelerate, study, and 
streamline proposal.
    I thank the Chair.
    Senator Boxer. Thank you. I want to mention that everything 
that you have said is going to be in one way or another part of 
our WRDA bill. So as Kirsten Gillibrand, Senator Gillibrand 
works with us, we will consult with all of you. Because we 
don't have any earmarks any more, you all know that. And let me 
just say, for the 10th time, I think that was ridiculous, so-
called reform. What it means is that we can't--we who know--if 
anything I am getting out of this listening to all of you is, 
you know every corner and every nook and cranny of where the 
problem occurred. Unfortunately, because there is no more 
earmarks, we have to leave it up to the Administration.
    However, something you said is important. A lot of the 
projects that haven't gone forward have engineers' reports, 
many are authorized. And our WRDA bill will be able, without 
naming the projects, to move those forward, which is very 
important.
    And in terms of accelerating, we have a new draft proposal 
to respond to these extreme weather events, Senator Schumer, 
which would enable us to have the Corps move very, very 
quickly. Because there are 10 different laws that come into 
play. And in rebuilding and mitigating future storms, we just 
can't afford to have this time lag.
    So I want to thank you so much.
    I want to welcome Senators Menendez and Senator Blumenthal. 
I want to say that what we are doing here is, we are making an 
historic record of this storm. Personally, I think it is a 
turning point in our approach to climate change, I hope it is. 
I am going to make sure all of you have books of this record 
today. It is how important I think it is. You are the 
eyewitnesses, you represent the people. We can't have millions 
of people here testifying. But your testimony is so critical. 
And you will be part of this record.
    We also are using this hearing as a way to finalize our 
WRDA bill, which will be coming forward very early in the next 
session.
    Senator Menendez, welcome, you have 10 minutes. We are very 
happy that you could take the time to be here.

              STATEMENT OF HON. ROBERT MENENDEZ, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Menendez. Madam Chair, first of all, thank you for 
your personal expressions of concern soon after the storm. I 
appreciate it, as do the people of my State.
    And thank you for your leadership, as well as Senator 
Inhofe and other distinguished members of the Committee, for 
giving us a forum to explain just how devastating Superstorm 
Sandy was to our region and to highlight the help that we need 
to rebuild.
    New Jersey was at the epicenter of the storm's entry. And 
the powerful storm surge overwhelmed our State, and the result 
is damage on a massive scale. As someone who has lived in New 
Jersey his entire life, I have never seen the devastation that 
Sandy brought us.
    The numbers are pretty staggering across the region. In New 
Jersey, we lost 39 people's lives to the storm. Based on 
preliminary--and I emphasize that--preliminary FEMA estimates, 
there are over 231,000 applications for homes and businesses in 
New Jersey that were damaged. But we certainly expect that the 
numbers will surge much higher.
    Over half of the State, 2.7 million households, lost power. 
Many for extended periods of time, some still today. The storm 
was the largest mass transit disaster in our nation's history, 
4 out of 10 of the nation's transit riders had their commutes 
disrupted by the storm, many still today. New Jersey Transit 
alone had dozens of locomotives and rail cars damaged in the 
flooding, and miles and miles of tracks damaged.
    The preliminary damage estimate provided by the State is 
now up to $36.9 billion in damage, and everyone expects that 
number to rise.
    Those are the numbers. And in one way they may be a way to 
quantify the damage, but they fail to paint a picture of what 
we have seen throughout the State. The level of destruction, 
the faces of the many thousands of displaced people who find 
themselves homeless and with basically nothing left from their 
homes, their possessions, their lifetime keepsakes gone. Entire 
neighborhoods whose several generations of families live in 
close knit communities, gone. Thousands of decades old small 
businesses ruined, their owners unsure if they will have the 
ability or the means to rebuild.
    And we are getting more damage numbers, but the human toll 
is truly incalculable.
    The sheer scope of the damage is also difficult to fathom. 
And I have seen it from the air, from the water, on foot. And 
the breadth and scope it, we have hosted the President and the 
Vice President and a whole host of Cabinet officials. We 
appreciate the Administration's many visits to get a sense of 
it.
    But my staff has compiled some pictures here that I would 
like to show you to give you a sense. This is the Mantoloking 
Bridge which crosses Barnegat Bay and crosses Brick with 
Mantoloking. As you can see in the picture, the storm surge 
ripped a gash right through Mantoloking. Amazingly, this bridge 
can be repaired. But it is obvious in this picture many of the 
surrounding homes were lost, and part of the highway will need 
to be rebuilt.
    On a boat tour of the area I saw damage for myself and took 
this picture of a house floating down the river. It is only one 
of many. This is a shipping container and a large pleasure boat 
tossed onto the Morgan rail bridge on the New Jersey coastline, 
along with tons of debris. It is a major rail intersection that 
moves so many New Jerseyans across the State. It took a lot of 
work to restore service on New Jersey Transit, which suffered 
disruptions on every rail line. This is only by way of example 
one.
    Even today, the Port Authority's PATH Terminal at Hoboken 
is inoperable and will not be back online for some time. This 
is a live video of what took place on that evening with Port 
Authority cameras giving you a sense of the flooding that took 
place in the terminal. And just gives you a sense of how deep 
the flooding took place. This is as you go right into the 
tracks, the level of flooding that was taking place. Those are 
the PATH Terminals where you would obviously board a PATH train 
along New York City or along the coast. Tens of thousands today 
still cannot use that terminal.
    In addition to transportation damage, many small businesses 
in New Jersey are facing the possibility of going out of 
business. Some were hit with thousands of dollars in lost 
business, while others saw their entire inventory destroyed. 
Interestingly enough, I had a visit from the head of the 
federally qualified health centers in our State, there are 20. 
They suffered as well, because they had a whole period of time 
in which they were closed. So the revenue stream for them 
during this whole period of time has affected them. Many of 
them, of course, were damaged as well.
    So while the SBA has low interest loan programs, which I 
have to be honest with you, are pretty close to commercial 
rates today, that is not going to help the hardest hit 
businesses. These entrepreneurs that fuel our economy have been 
hit with a one-two punch. First they had the great recession, 
and now, just as we are beginning to recover, and they were 
seeing the light in the tunnel, that tunnel gets flooded on 
them with a debilitating storm.
    So whether it is through flexibility in the Community 
Development Block Grant program, which you have a history of 
with Hurricane Katrina, or a new disaster recovery block grant, 
or through more flexible SBA or other programs, we should 
provide grants to get small businesses back on their feet. This 
will not only help the small business owners themselves, it 
will keep the workers on the job, bring back tax revenue for 
local governments to repair and rebuild and restore a sense of 
normalcy for our communities.
    We were already at over 9 percent unemployment before the 
storm. And if history teaches us anything from Hurricane 
Katrina, it is that unemployment dramatically rose 
subsequently. That is a big challenge.
    To economically rebuild New Jersey, we also need to rebuild 
the Jersey Shore. That is a $38 billion tourism economy in our 
State. The Jersey Shore isn't just about summer homes--that 
sometimes is a huge misconception. It has been transformed into 
year-round communities.
    The next two slides show the importance of some of what 
Senator Schumer was talking about, Army Corps on our shoreline. 
Stockton College did a study of the Army Corps' beach 
engineering programs before and after the storm. What it found 
was unambiguous. Where the Army Corps was able to complete 
beach engineered projects, the dunes held. And the damage to 
communities behind the project was either negligible or 
manageable.
    So here is a before and after photo at Surf City, which 
received beach engineering in 2007 as part of the U.S. Army 
Corps Long Beach Island Shore Restoration Project. You can see 
that despite the damage to the dune, the dune held. It saved 
lives, it saved property, it saved money. It made sense.
    Alternatively, here is a photo of another part of Long 
Beach Island, in the Loveladies neighborhood that unfortunately 
did not have similar protections. It may not appear to be 
obvious damage, but when the surge came, washed away the 
undeveloped dune and flooded the homes you see along the beach, 
it pushed extraordinary amounts of sand into the neighborhood, 
covering the street and the entire area.
    I would like to submit a copy of Stockton College's study 
for the record.
    Senator Boxer. Without objection.
    [The referenced material was not received at time of 
print.]
    Senator Menendez. We desperately need, Madam Chair, to 
provide the Army Corps the funding it needs to do not beach 
replenishment; this is about engineered beaches that save 
lives, save money, and stop us from repetitive loss. Our 
existing defense is, it is almost as if you are personally ill 
and your immune system is low. Right now, the urgency of now is 
critical. Because if we get a northeaster, based upon what we 
have suffered after Superstorm Sandy, then the effects would be 
devastating to us. Our existing defenses from the storms have 
been greatly weakened. If a powerful northeaster hits New 
Jersey again, we could again see damage on an unbelievable 
scale.
    And I just want to talk briefly, as part of one of the 
great industries of our State, that fishing industry that is 
along the New Jersey Shore, the reports we have gotten about 
the damage to commercial fishing industries have been 
devastating. There are long stretches of the shore where every 
marina, dock, and slip has been destroyed. And the boats moored 
to the infrastructure were launched onshore.
    Here at Wagner's Marina in Keyport, just one example of how 
the boats were tossed into surrounding buildings, they lost 
over 5,000 feet of dock space, including electrical systems, 
catwalks, and gas lines.
    So the need we have is enormous. We need the Federal 
Government as a partner to help us rebuild. And we need help 
not just rebuilding to the status quo, but to make sure that we 
are stronger, so the next storm--so that we don't have this 
type of devastation again.
    I want to close with just, in the midst of all this 
incredible darkness, the resiliency and the light that 
sometimes comes in the midst of such adversity. There are so 
many stories. There is a story of the young woman in Hoboken 
who lived in a basement apartment who totally was flooded, lost 
everything. And instead of going ahead and thinking about what 
is my tomorrow all about, she spent the better part of a week 
at a shelter helping everybody else, even though she had 
nothing to go back to.
    Or there is Pam Bond and Jeff Spinardi who own a candle 
shop called Greetings from Hoboken. They lost power along with 
everybody else on Washington Street; for over a week they were 
closed. The day they got power back, they opened the store, 
they made $27 despite the fact that this is the busiest time of 
the year for them. And despite their own struggles with the 
store, they wanted to help others.
    When they heard that the Hoboken homeless shelter was out 
of power and needed candles and found out the shelter had only 
one candle with which to light their whole process, Pam and 
Jeff donated hundreds of dollars' worth of candles to help them 
out. And now they are raising more funds for the shelter. This 
is the type of State that our people are ultimately about.
    So I am asking each of our colleagues in the Congress to 
stand with us and help New Jerseyans recover and rebuild in our 
time of need, just as I personally, since I have been here, 
have stood with the people of the Gulf Coast after Hurricane 
Katrina, or the people of Joplin, Missouri, or crop destruction 
after a tornado ravaged a community. Because it is who we are, 
it is what we do as a country. And it is what truly gives the 
meaning to the United States of America.
    Thank you, Madam Chairman.
    Senator Boxer. Senator, thank you so much. And all of our 
speakers have been extraordinary. And I am going to, with your 
permission, include a lot of these photographs in our record. 
Is that all right with you?
    Senator Menendez. Yes, thank you very much.
    [The referenced photographs were not received at time of 
print.]
    Senator Boxer. And our last Senator to speak before we turn 
to our House colleagues will be Senator Blumenthal from 
Connecticut.
    We are so delighted you could be here, Senator. Go right 
ahead.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
           U.S. SENATOR FROM THE STATE OF CONNECTICUT

    Senator Blumenthal. Thank you very much, Madam Chairman. I 
want to thank you and Ranking Member Inhofe for today's 
hearing.
    And my colleagues, who have stated so eloquently what 
happened in New York and New Jersey, Connecticut, really shared 
their fate. Although the national media coverage may give the 
impression that Connecticut's damage was more a footnote to the 
main story, in fact the destruction and damage in Connecticut 
was every bit as real and the pockets of destruction as 
pervasive as elsewhere. I think many of the lessons learned 
that you have heard here form a pattern that we need to invest 
now or pay later, that there are measures we can take now to 
minimize the damage in the future, and we cannot be penny wise 
and pound foolish to avoid those measures going forward.
    And the other lesson that I think is striking here is that 
our efforts have to be complementary, not competitive, that we 
are mutually supportive in this effort. I have been asked 
repeatedly, aren't you in competition with New Jersey and New 
York? The answer is very emphatically no. We are mutually 
supportive and reinforcing, as we are to responses that have 
been done to other disasters, whether they have been hurricanes 
or tornadoes or earthquakes around the country. We are united, 
as a United States of America, as Senator Menendez has said.
    Hurricane Sandy's scale and scope of destruction made it 
one of the largest natural disasters to affect our nation, 
leaving millions of people in the tri-State region without 
homes or electricity and costing tens of billions of dollars in 
damages to governments, businesses, and residents. The sweep 
and depth of destruction and human impact and financial effect 
was simply staggering.
    And our response now has to match its historic magnitude. 
We need to think big and act big with urgency and vision. Right 
away, short-term. We must redouble our efforts to reduce the 
personal cost and property damage of this storm and other 
storms. And longer view, the path toward enlightened protection 
and preparation must include infrastructure improvements. They 
may seem massive, but they are well needed and deserved, such 
as has been done with Stamford, Connecticut's floodgate 
repairs, steps to stop flooding on the Housatonic River, and 
electricity security measures, such as the establishment of 
micro-grids and increased availability of generators for 
various public and private facilities, especially for senior 
citizen housing.
    In Connecticut, disasters like Hurricane Sandy are quickly 
becoming the new normal. The storm is the fourth major disaster 
for the State of Connecticut in the past 19 months. Record 
snowfall in January of last year, 2011, caused buildings to 
collapse. That spring, Connecticut incurred destructive floods, 
especially on the Housatonic River, resulting from melting snow 
and tropical storm sized rainfall.
    Later in 2011, Tropical Storm Irene and then a highly 
unusual October snow storm caused power outages that took more 
than a week to repair. And most recently, Sandy hit coastal 
towns with tropical storm force, combined with high tides and a 
full moon, winds and surges producing record high storm levels 
in the seas immediately surrounding the shores. And inland 
towns experienced significant widespread outages.
    I want to thank the Committee for this personal insight, 
enabling us to provide some personal history. I was out in the 
storm, actually experiencing its ferocity and force, as I 
visited many of the emergency operation centers, and then 
afterward touring the State by land, by air, by sea as my 
colleagues have done. And most recently earlier this week with 
the Administrator of FEMA, Mr. Fugate. I saw in the immediate 
aftermath, as well as during these storms, the personal courage 
of our emergency responders. The city of Milford's fire 
department that performed 13 water rescues, the National Guard 
supported 73 assistance missions, our Governor responding with 
his excellent leadership. Eighteen State agencies, the Red 
Cross, the United Way, all coming together including our 
utility linesmen and repair crews that worked tirelessly to 
restore critical electric power to homes and businesses.
    And yet, I want to make clear that utility workers on the 
ground and in the field were once again heroes. But the utility 
management of the overall storm response was regrettably 
lacking in some regions. Although better than last year, it was 
still inadequate in key respects and areas. My many 
conversations with elected officials around the State indicated 
clearly that utilities need to better communicate with local 
authorities on the location and allocation of repair and tree 
removal crews in their communities.
    Too often municipal leaders and emergency response crews 
were left in the dark, both figuratively and literally. The 
utilities, in addition, have to follow more closely the 
municipal electric utility model and provide at least one 
electricity restoration crew to each town, working with that 
town's public works department to remove live wires and allow 
the reopening of roads. They have to provide additional 
resources to restore electricity to the most critical areas of 
every town, which local officials know best.
    I want to compliment President Obama. The response of the 
Federal Government was quick and decisive. And personal visits 
by the Secretary of Homeland Security, Janet Napolitano, as 
well as Administrator Fugate, were extremely important in 
calling attention and gathering information so that the Federal 
Government could assist very directly and immediately in this 
disaster recovery.
    The total amount of damages is very preliminary but 
dramatic. Public infrastructure needs are in the tens of 
millions. And these estimates do not even take into account the 
possible public infrastructure damage that FEMA may be unable 
to reimburse due to the lack of flexibility within the hazard 
mitigation program.
    We have built our infrastructure to 100 year storm levels. 
Unfortunately, the 100 year storm seems to be happening about 
every year. We have to be prepared for this new normal by 
hardening critical infrastructure and taking the time and 
spending the money to conduct the infrastructure assessment 
that Senator Schumer spoke about doing. This kind of studied 
and streamlined approach is absolutely what needs to be done.
    And as we continue to fund infrastructure improvements, the 
Federal Government should consider how such improvements may 
mitigate future water related damage and future taxpayer costs 
for restoration. One point here is that FERC continues to 
encourage transmission line redundancy and strengthening. But 
it should also consider similar initiatives for local backup 
power sources. I note that ISO New England has just applied to 
FERC for a 9.2 percent increase in its budget. The regional 
transmission authority, ISO New England, should devote some 
attention to the needs in this area. I question whether this 9 
percent budget request is justified and deserves certainly 
serious attention, which I believe Federal agencies should give 
it.
    In response to mounting advocacy, including my own, 
Connecticut is investing in micro-grids. A micro-grid, or 
distributed generation, allows communities to generate 
electricity from many small sources instead of just a few big 
ones. And these micro-grids offer an antidote to mass blackouts 
after storms. I am hoping that both FERC and ISO New England 
can be positive and active partners in the promotion of micro-
grids.
    Generators for senior citizen facilities have to be 
considered. I visited a number, one in Preston, encountered a 
similar problem in Franklin, Connecticut. These kinds of micro-
grid and electricity restoration efforts are necessary to meet 
the needs of our vulnerable populations. Again, FERC should 
work with utilities to provide incentives and even mandates for 
bulk purchase of mobile generators that could be transported to 
these facilities on an as-needed basis as well as permanent 
generators in other residential facilities.
    I have more that I could say. I ask that my full testimony 
be entered into the record.
    Senator Boxer. Without objection.
    Senator Blumenthal. But finally, let me just say, Stamford 
offers an example of what I think you have heard from a number 
of my colleagues about the use of hurricane barriers. In 
Stamford, a 17 foot barrier, which blocked an 11 foot storm 
surge from Sandy, was built in 1969, and helped prevent about 
$25 million in damage to businesses and homes during Sandy. 
Stamford is waiting for Federal funding of less than a million 
dollars to replace the barrier's pumps that had to be operated 
manually during the storm. An investment of less than a million 
dollars would ensure a saving of $25 million in avoided 
recovery costs.
    Similarly, the Army Corps of Engineers should and must take 
an increased role in flood mitigation efforts, especially along 
the Housatonic River, where there has been repeated flooding as 
a result of these past storms. Review and responsibility begins 
with the Army Corps of Engineers, but Congress can help support 
and move forward this vital work.
    Flood studies will help identify how the State can be 
better prepared and equipped for these storm surges along the 
Five Mile River in Fairfield and New Haven Counties, the 
Housatonic River, a variety of places around the State of 
Connecticut where we know prevention works. We have seen it 
first-hand, and the investment now will avoid payment later.
    Senator Boxer. Senator, I hate to rush you through, but I 
have all these House members waiting.
    Senator Blumenthal. I just want to finish by thanking you, 
Madam Chairman.
    Senator Boxer. Absolutely.
    Senator Blumenthal. I hope that we can work together.
    Senator Boxer. We will. We will.
    Senator Blumenthal. Thank you.
    [The prepared statement of Senator Blumenthal was not 
received at time of print.]
    Senator Boxer. And as you leave, Senator, I just want to 
tell the House members, the purpose of this hearing today is to 
make a historic record of this storm. We can't have all your 
constituents here, you are their representatives. So we are 
going to put together a record of this hearing that we will 
actually give to each of you who made this record.
    My own belief is that, I hope and I pray it will be a 
turning point in how we look at climate change, and that we 
begin to make the necessary improvements that all the Senators, 
and Senator Blumenthal was very specific, showing one example 
of where a million dollars can save $20 million-plus. What is 
the point of us not listening to that?
    And as we work on a WRDA bill, and some of you are on the 
House counterpart committees, we are going to address all of 
these issues as best we can, as early as we can, next year.
    So here is where we are. I would like to thank Senator 
Blumenthal, I know you have other meetings. The order in which 
we are going to hear from people, considering who is in the 
room, so this is what we are going to do. Pallone, Langevin, 
Bishop, Cicilline, Representative Holt, Representative Harris.
    So if you could just all come on up here, we will go in 
that order. I have given you each 2 minutes, but I will have a 
very soft gavel until you reach 3. As someone who spent 10 
years in the House, I learned to speak in 1 minute. Remember? I 
remember those days. When I got to the Senate, the press came 
up to me one day and said, you have changed, you are so calm. I 
said, well, in the House I had to get to the end of my speech 
and just have 1 minute to express myself. Here I can work my 
way up to the ending.
    So I know it is a great skill, but you are all really good 
at it. So we will start off with Representative Pallone.

             STATEMENT OF HON. FRANK PALLONE, JR., 
        U.S. REPRESENTATIVE FROM THE STATE OF NEW JERSEY

    Representative Pallone. Thank you, Chairman, and thanks for 
having this hearing and inviting us from the House.
    My district was very hard hit by the storm, and I really 
wanted to just focus on a number of critical issues that have 
come to light that I think we must address as we move forward. 
I am not going to talk so much about what happened, but what we 
need to do over the next few months and year.
    First I wanted to say, there is a great need for more 
temporary housing alternatives. I have thousands of people that 
have lost their homes. They have to actually reconstruct or 
rebuild their home. It is not just damage. And we have now some 
temporary housing that is being set up at Fort Monmouth, which 
is a closed Army base. But we really need trailers and mobile 
homes. Many of the mayors have requested those and are willing 
to accommodate them. They haven't arrived yet. But I want to 
mention that that is a priority.
    Additionally, we need FEMA to provide emergency funds to 
the Army Corps of Engineers so they can repair breached dunes 
and replenish beaches to protect the damaged areas from future 
storms. You heard from Senators Menendez and Blumenthal, where 
there was a dune, where there was a seawall, where there were 
replenished beaches, the damage was less. Those need to be put 
back again.
    I have also requested that FEMA waive the 25 percent State-
local match for public assistance repair work. Many 
municipalities in my district, some of which are very small, do 
not have the resources to contribute. I have some towns that 
have less than 1,000 families. They can't meet that 25 percent 
match.
    It is also critical for funding to be made available for 
homeowners to pursue buyouts or grants to raise their homes in 
areas that flood frequently. We have some areas which have 
flooded three times now. Basically a buyout would make sense 
rather than trying to put the homes back again.
    The Secretary of Commerce has declared a fishery disaster, 
due to the impact of Sandy, but that should include both 
commercial and recreational fishing communities. Fish 
processors, charter boat operators, marinas, tackle and bait 
stores, and other fishery related businesses have lost their 
equipment, infrastructure, and expected revenues. So Congress 
must make sure funds are allocated for fishery disaster 
assistance, so these individuals and businesses can receive 
relief.
    I met with FEMA Administrator Fugate, and I noted when I 
met him that small business failures, he says small business 
failure rates after a major disaster can exceed 70 percent. So 
I believe we must also work to avoid this by expanding CDBG 
grants to assist small businesses facing damage from the storm, 
and would also like to see CDBG grants available for homeowners 
whose insurance or FEMA grants did not provide enough funding 
to rebuild, something I am asking you to look into.
    Finally, obviously we have to continue to work in a 
bipartisan manner. I would like to see a robust supplemental 
appropriations passage in the lame duck, rather than wait to 
the new session. And I know that you are going to work with us 
to try to accomplish that.
    Senator Boxer. Yes, and many of the things you said 
obviously deal with the supplemental. And I will of course work 
with my colleagues on Appropriations.
    Thank you very much, Representative Pallone. As colleagues 
leave the table, my new arrivals, please take their spot. We 
will move ahead. We are making a record here, a record of 
Sandy.
    Representative Langevin, thank you for being here.

                STATEMENT OF HON. JIM LANGEVIN, 
       U.S. REPRESENTATIVE FROM THE STATE OF RHODE ISLAND

    Representative Langevin. Thank you, Chairman Boxer.
    Thank you for the opportunity, Chairman Boxer, to testify 
here today. I want to thank you for having me here today to 
provide a local perspective on Hurricane Sandy. I am pleased to 
be here with my colleague, Congressman Cicilline, as well, as 
we talk about the impacts to Rhode Island.
    Hurricane Sandy was obviously a devastating storm for much 
of the Northeast, as we all know, with some portions of the 
region still recovering and others that are forever changed. As 
Rhode Islanders know all too well, the so-called 100 year 
storms are becoming more frequent, providing a stark reminder 
that climate change is occurring, whether we like it or not.
    While I sincerely hope that superstorms like Sandy are not 
becoming the norm, it is incumbent upon all of us to take 
action to mitigate future vulnerabilities. I must say that both 
before, during, and after Hurricane Sandy, our first responders 
performed above and beyond our expectations, and utilities and 
other stakeholders across Rhode Island were laudable in their 
preparation and responses to Sandy.
    However, being prepared means more than just having 
emergency response procedures in place. As we restore our 
infrastructure, we must also build strong coastal ecosystems 
that help protect our communities from storm surges and 
flooding. I certainly echo those requests outlined by Senators 
Reed and Whitehouse in their testimony when they spoke earlier 
today.
    Our communities have shown tremendous strength and 
generosity in the wake of Sandy. Our Federal and State agencies 
were well prepared, organized, and responsive. But a full 
recovery in Rhode Island and elsewhere will require continued 
application of Federal resources in the current fiscal year and 
beyond, as well as prudent and careful planning in order to 
meet the needs of our communities.
    In that regard, Chairman Boxer, I look forward to working 
with this Committee to help families and businesses in Rhode 
Island and the rest of the region affected by Sandy to recover 
and rebuild in the wake of this disaster. I thank you again for 
the opportunity and I look forward to working with the 
Committee.
    Senator Boxer. Yes, and we look forward to working with 
you.
    We are going to hear from Representatives Bishop, 
Cicilline, Holt, Harris, and Pascrell, in that order.
    Representative Bishop.

               STATEMENT OF HON. TIMOTHY BISHOP, 
         U.S. REPRESENTATIVE FROM THE STATE OF NEW YORK

    Representative Bishop. Madam Chair, thank you very much for 
inviting myself and my colleagues from the House to testify 
before your Committee today.
    I want to start with a comment that you just made with 
respect to the imperative that we move a WRDA reauthorization 
bill as quickly as possible. Because I believe that many of the 
challenges facing the First District of New York, which I 
represent, can and would appropriately be addressed in a new 
WRDA authorization bill. I hope the House can meet you halfway 
in approving a bill as early as possible in the new Congress.
    As your Committee moves to consider measures to help 
affected States deal with the aftermath of such as massive 
storm as Sandy, I would like to offer the following suggestions 
to ease the burden on our State and local governments. First, 
we should waive the local cost share for Corps projects that 
were adversely impacted by Hurricane Sandy. In the recent past, 
Congress has authorized Corps projects at Federal expense in 
response to significant national or regional challenges.
    In my view, the challenges facing our communities warrant 
such a change today. Similar to the suggestion I offered when 
the House considered the Recovery Act in 2009, I will continue 
to advocate for a limited and appropriate cost share waiver as 
the Ranking Member of the Water Resources and Environment 
Subcommittee in the House.
    We should authorize a renewed commitment and investment in 
hurricane and storm damage reduction projects that provide 
invaluable storm protection for families of all socioeconomic 
levels in my district. In this light, I applaud the first steps 
taken by this Committee and you, Madam Chair. I understand you 
are working very closely with incoming Ranking Member Vitter in 
a draft Water Resources Development Act. In addition, we must 
ensure funding is wisely allocated to storm damage reduction 
solutions that have demonstrated successes, such as the dunes 
in the West Hampton Beach area of my district, and protect the 
inner bay ecology along the south shore.
    Finally, we should provide robust funding for the hazard 
mitigation grant program to ensure that cost effective projects 
that will reduce or eliminate the losses from future disasters 
are able to move forward with State and local support. While 
providing Federal support for recovery costs in affected areas 
is absolutely critical, a strong hazard mitigation grant 
program will save money in the long term and make our 
communities more resilient.
    I look forward to working with my colleagues on both sides 
of the aisle and in both chambers to expedite these and other 
measures to rebuild and restore our communities in a fair and 
equitable manner. I yield back and thank you very much.
    Senator Boxer. Thank you, Congressman. It was a pleasure to 
work with you on the highway bill, and I look forward to 
keeping that progress going with WRDA.
    To our colleagues who are just walking in now, I want to 
welcome you all here. So you can see, we don't have a large 
enough table, but the next--I think it was Representative Grimm 
who came in next, I am not sure. Please take a seat.
    We are going to go in the order of arrival. What I want to 
say here is, we are making a permanent record of what happened. 
You are the eyewitnesses, really, telling us the stories and 
also giving us ideas, as you have done, for what we should put 
in our WRDA bill. I am very pleased that you all took time. I 
know you are all very busy and have lots of places to be.
    So although I gave you 2 minutes, I am going to add another 
minute on, because I know even though you are used to speaking 
in one moment, I think 3 minutes would be what you need.
    So we are going to proceed, Representative Cicilline 
followed by Representative Holt.

              STATEMENT OF HON. DAVID CICILLINE, 
       U.S. REPRESENTATIVE FROM THE STATE OF RHODE ISLAND

    Representative Cicilline. Thank you, Chairman Boxer, for 
this opportunity to appear before you today with my colleagues.
    I want to begin by recognizing the incredible strength and 
resilience of those whose lives were affected by this storm, 
especially along the Rhode Island coastline, where there was 
moderate to major flooding. I want to particularly applaud the 
efforts of our State and local first responders, Rhode Island 
National Guard, and the Emergency Management Agency, our public 
works and highway employees, National Grid and our other 
utility providers, and the many others who have been working 
relentlessly in the recovery effort.
    I also want to recognize the collaboration that was 
demonstrated in our State across every level of government. In 
particular, the leadership of our Governor, Lincoln Chafee, and 
our mayors and town administrators. At every step of the way, 
we had the assistance of the Federal Government, helping 
inform, prepare, and assist Rhode Islanders.
    Now, Congress has the responsibility to ensure that our 
communities can rebuild as quickly and effectively as possible. 
We need to act expeditiously in providing additional disaster 
relief.
    At the same time, I think this is an appropriate moment to 
assess potential reforms. I thank you for convening this 
hearing to address some of these issues.
    There are two issues that I heard most frequently during 
both Hurricane Sandy as well as Hurricane Irene, which I would 
like to bring to your attention. First is from small business 
owners, particularly those from economically challenged 
neighborhoods and small individually operated shops and 
businesses with just one or two or three employees. These small 
businesses face a particular set of challenges that often 
preclude them from taking advantage of SBA disaster loans, even 
with reduced interest rates.
    I invite this Committee--and I will do the same on our side 
as a member of the House Small Business Committee--to assess 
the possibility of providing direct financial assistance to 
these truly disadvantaged small business owners, either through 
grants or hybrid of up front grants followed by super low 
interest loans. We can establish stringent eligibility criteria 
and accountability mechanisms, but we need to attempt to get 
targeted relief funds to those small businesses that sometimes 
face insurmountable hurdles following a disaster.
    The second issue which was raised to me during tours of 
recovery sites after the storm is that as we invest in the 
restoration of highways, bridges, and infrastructure to pre-
disaster conditions, we should not be penny wise and pound 
foolish. We need to maximize the efficiency of this funding, 
and obviously look at the waiver of the local cost share. But 
we also need to ensure that there are clear cost-benefit 
analyses performed that evaluates whether it would be 
advantageous financially, economically and in terms of future 
damage prevention, to provide for additional enhancements to 
this infrastructure beyond that of pre-disaster conditions 
alone, as current law provides.
    Some additional improvements, as you know, are eligible, 
but in light of the estimates showing a rise in the number of 
future large scale disasters, now is the time to assess all 
options and determine whether or not the current limitations 
are too restrictive.
    I thank you for the opportunity appear before you today and 
look forward to working with you and other members of this 
Committee as we continue to address these issues for our 
constituents.
    Senator Boxer. Thank you. And I think you underscored a lot 
of the points that were made, that we can't rebuild the way it 
was built before. That is just a waste of money. We have to 
prevent the damage in the future.
    I had a similar thing in an earthquake when our bridge 
failed, the bay bridge. It was horrible, just broke right off. 
And there was a big debate on the floor of the Senate whether 
we should rebuild it the way it was or make improvements. 
Clearly, it was the approach that failed to the bridge, and we 
prevailed. But it was a big argument. It shouldn't have been an 
argument. It doesn't make sense to rebuild it the way it was 
built, since we now know it can fail.
    Anyway, all these things that you are saying to me today 
are very important. It is a pleasure to have all of you here, 
and I call on Representative Holt.

                 STATEMENT OF HON. RUSH HOLT, 
        U.S. REPRESENTATIVE FROM THE STATE OF NEW JERSEY

    Representative Holt. I thank the Chair for holding these 
hearings and inviting us.
    I thank and appreciate the work of FEMA under Director 
Fugate and all the workers who came from all over New Jersey 
and all over the United States to help protect and assist the 
many people in New Jersey affected by the storm.
    I join Representatives Pascrell and Pallone and Bishop and 
Langevin and others in what they are requesting. But the point 
I want to make is today we must consider more than just 
repairing the damage from Sandy. In recent years, we have 
experienced in various parts of New Jersey unprecedented 
floods, winds, rains, tidal surges. Not just Katrina, Irene, 
Floyd, Sandy, but again and again. The next storm will be 
different from Sandy only in detail. These unprecedented storms 
are the new normal.
    And deniers of climate change notwithstanding, we are 
deluding ourselves if we think we are not experiencing climate 
change. We must not simply replace the structures damaged by 
Sandy. We have to build resilient infrastructure to withstand 
tomorrow's superstorms. We must build for the new normal.
    That means significant investment in power engineering and 
transportation engineering and rail engineering and wireless 
engineering and shoreline engineering and river flood control, 
in planning and residential building and other efforts to 
strengthen our infrastructure. All in addition to taking as 
aggressive steps as we can to bring climate change under 
control as best we can.
    So just as strengthening levees was part of the emergency 
supplemental spending for Katrina, so infrastructure 
strengthening should be part of the response to Sandy. I can't 
emphasize this too strongly, I am sure that the Chair 
understands this, and again, I thank you for giving us this 
time.
    Senator Boxer. Thank you so much, Congressman.
    We will turn to Representative Harris, followed by 
Pascrell, Engel, Grimm, and Courtney. And I think that will be 
our group.
    Please proceed, Representative Harris.

                STATEMENT OF HON. ANDY HARRIS, 
         U.S. REPRESENTATIVE FROM THE STATE OF MARYLAND

    Representative Harris. Thank you very much, Chairman Boxer, 
for the opportunity to provide brief testimony on the impact of 
Hurricane Sandy on the area I represent.
    The First Congressional District of Maryland includes all 
of Maryland's eastern shore, much of it only a few feet above 
sea level. Somerset and Worcester Counties and particularly the 
communities of Crisfield, Smith Island, Marion, Fairmont, Diehl 
Island, Ocean Pines, and Princess Anne were particularly hard 
hit with flood, wind, and rain damage from Hurricane Sandy.
    While these communities continue to recover, our thoughts 
and prayers certainly go out as well to our neighbors from New 
York, New Jersey, Delaware, Connecticut, Rhode Island, and 
other areas where today's heartfelt testimony showed just how 
lives and businesses of families were disrupted as they dealt 
with this massive property loss.
    On October 31st I toured the affected sites in Crisfield 
and Ocean City with Governor O'Malley and FEMA and local 
officials to see first-hand the serious impact of the 
superstorm. The Army Corps beach engineering projects really 
protected Ocean City from major damage. It was good to see, 
because that is an investment we have made over the years.
    I was nonetheless stunned to see the devastation to some of 
our communities like Crisfield and to see what they suffered.
    Madam Chairman, 3 weeks after the events last week, all 
Americans watched thousands of families eating Thanksgiving 
dinner in a shelter, never to return to their homes. And that 
is something that we will live with, and we will deal with. And 
Senators Gillibrand and Menendez suggested, though, the worst 
of nature turns out the best in people. It is so encouraging to 
see citizens, a lawyer in Crisfield like John Phebus, who now 
spends his days organizing hundreds of volunteers and 
coordinating them helping their neighbors recover.
    Last week I hosted a tele-town hall meeting with over 1,000 
residents from the impacted communities. I was very encouraged 
by the Federal and State coordinated response efforts to date. 
But Madam Chair, one message I heard loud and clear is that a 
few citizens still have an understanding of the different 
responsibilities of the Federal, State, and local governments 
as they respond to disaster and recovery, which does underscore 
the need for all levels of government to be prepared for these 
catastrophes in the future, ensuring that scarce resources can 
always be made available to those parts of our community most 
in need of assistance.
    Madam Chair, I want to thank you for holding this important 
hearing of record.
    Senator Boxer. I want to thank you very much.
    And again, you are the eyes and ears for so many people who 
can't fit in the room. So thank you very much.
    And now we will turn to Representative Pascrell.

             STATEMENT OF HON. BILL PASCRELL, JR., 
        U.S. REPRESENTATIVE FROM THE STATE OF NEW JERSEY

    Representative Pascrell. Chairman Boxer, thanks for putting 
us together today and listening.
    This was an epic storm, and it needs an epic response. I 
hope it does not get caught up in the debates that we are 
having in both the House and the Senate on how best to face 
this fiscal cliff that we all read about and talk about. 
Because that would be very dangerous to the people, not only of 
the State of New Jersey, but the other States and metropolitan 
areas of the tri-State area.
    We are working with members of the Ways and Means 
Committee, as a member myself, to draft legislation modeled 
after other epic storms, which would bring some tax relief. 
Allowing businesses to expense the cost of disaster recovery is 
critical when we see how many businesses have been wiped out. 
Helping rebuild damaged low income housing and providing help 
and financing the momentous task of rebuilding infrastructure.
    What we have now in FEMA is not good enough for the loss in 
small businesses. It just is not. We don't need low interest 
loans. What we need is a new addressing of the major problem. 
Small businesses are not satisfied with low interest loans at 
this point. It is beyond that. It needs to be responded to, and 
I hope this legislation will do that.
    You take a look at Bergen County in the Ninth Congressional 
District. Two towns were wiped out when the Hackensack River 
rose above its berm. Monacy police department, there isn't any. 
And we are trying to get Federal funding, matching funding to 
bring in trailers for that town, and I think we are going to 
accomplish it.
    The mayor of Littlebury had his house wiped out, almost 
lost his wife. This is a tragedy beyond words, certainly my 
words. It will be in the hands of the Federal Government and 
bipartisan groups like the one before this Committee today to 
step in and help rebuild. This is critical. We need to review 
our grid. And Senator, this is very important, it is not only 
important for New Jersey and the metropolitan area, but the 
grid is not doing what it is supposed to do. It is a homeland 
security issue, no question about it. We have substations wiped 
out because they are not placed in the right place, which puts 
everybody out of power in the immediate area.
    These substations have been compromised, not only in New 
Jersey, but in other States across the Union. So this is a 
homeland security issue, whether it is man-made or God-made, it 
doesn't matter, we need to respond to it.
    I will conclude by saying to you, Senator, and you know 
exactly what I am talking about, we cannot catch this up in the 
discussion that we are having in terms of responding to the 
economic plight of this country. We cannot, or else we will 
miss out, and we will have a million excuses.
    Thank you very much for having us.
    Senator Boxer. Representative, I couldn't agree with you 
more. We have had Republicans before us, Democrats before us. 
If we can't come together and help the people who were so 
harmed, and we get this caught up in our other disputes and 
problems, shame on us. People will watch it, and people see it. 
We can't do that.
    There are certain things that are way above politics. This 
superstorm is one of those things, it is way above politics.
    Representative Pascrell. It wasn't easy after Katrina, 
either, you know that, Senator. There were a lot of debates 
about that. And when we look back on it, I hope some of the 
folks who were obstacles are ashamed of their behavior. These 
people had nothing as well. If we can't rise up above our 
political ideologies, then we don't belong here.
    Senator Boxer. Well, I think we are going to. I feel 
confident of that. And I ask unanimous consent to enter into 
the record statements by Senator Mikulski and Representatives 
Nita Lowey, Peter King, Rosa DeLauro, Joe Runyon, and Frank 
LoBiondo.
    [The referenced statements were not received at time of 
print.]
    Senator Boxer. I am happy we have been joined by 
Representative Smith. We will in this order continue. I want to 
say for those who just came, we are making a record, sort of an 
eyewitness account of what happened with Sandy. We are also 
using your testimony as a way to guide us as we write the water 
resources bill, which will deal with flood control and 
prevention.
    So the order now is Engel, Grimm, Courtney, and Smith.
    Congressman Engel, the floor is yours.

                STATEMENT OF HON. ELIOT ENGEL, 
         U.S. REPRESENTATIVE FROM THE STATE OF NEW YORK

    Representative Engel. Thank you, Madam Chairman, and let me 
say it is nice to see graduates from the House doing so well in 
the Senate. Thank you for having us.
    [Laughter.]
    Senator Boxer. I don't know if I graduated, I left.
    Representative Engel. As you know, I represent New York's 
17th Congressional District, which includes parts of the Bronx, 
as well as Westchester and Rockland Counties, just north of New 
York City. Sandy is the largest tropical system ever recorded 
in the Atlantic. Her winds stretched 1,100 miles from end to 
end, and she was brutal from the very beginning. Sandy killed 
at least 69 people in the Caribbean, including 54 in Haiti and 
11 in Cuba, and then on October 29th, she crashed ashore in the 
United States.
    By the time it was done, Sandy had taken 131 American 
lives, which included 53 New Yorkers. In just the New York City 
region, Madam Chair, which you know well, 305,000 homes were 
destroyed or damaged, 2.4 million residents lost power. A 
transit system carrying more than 8 million daily riders was 
forced to shut down. Thirty-seven health care facilities 
housing more than 6,000 patients were forced to evacuate. Two 
thousand miles of roads were damaged, and 11 tunnels were 
flooded.
    The total economic losses from Sandy have climbed up over 
$70 billion and are still accumulating. It is now the second 
most expensive storm in U.S. history after Hurricane Katrina. 
In the face of unimaginable destruction, what has been 
inspiring and heartening is to see so many citizens from nearby 
neighborhoods and across the country pitching in with relief 
efforts.
    FEMA's work has been admirable, more than 231,000 New 
Yorkers have contacted FEMA, and nearly $680 million in 
assistance has been approved. The Department of Agriculture's 
Food and Nutrition Service has distributed 1.1 million pounds 
of household sized USDA food.
    But obviously, as my colleagues have said and as you have 
said, Senator, much more needs to be done. We must provide much 
more recovery funding to the region. In 2005 we approved $58.1 
billion to help Gulf States recover from the effects of 
Hurricane Katrina. A similar effort must be made for those 
impacted by Sandy.
    In addition to recovering from past destruction, we must 
also look to prepare for the future. We are likely to 
experience more storms of Sandy's magnitude, and we are not 
ready--sadly, we are not ready.
    To adequately prepare, first of all, we must build a better 
grid. A storm the size of Sandy would stress even the most 
resilient electrical grid, but that is not the grid we have. We 
still depend on 20th century technology to power a 21st century 
economy. We must also bury power lines. Just 18 percent of U.S. 
distribution lines are underground. Burying them could make a 
tremendous difference. Some of my constituents in Scarsdale and 
Rye and Larchmont had to wait 2 and 3 weeks before they could 
get power. This is unacceptable.
    We must continue to fully fund FEMA and review its 
practices to make sure it is performing as efficiently and 
effectively as possible. We must build better infrastructure. 
America spends just 2.4 percent of its economy on 
infrastructure, compared with 5 percent in Europe and 9 percent 
in China. If we are to have a 21st century economy and live in 
the real world, this 2.4 percent is not sustainable and not 
acceptable.
    We must also accelerate replacement of natural gas 
pipelines. During Sandy, leaking gas fueled hundreds of fires, 
including blazes that destroyed hundreds of homes.
    And finally, as you have mentioned so eloquently, Senator, 
we must stop ignore climate change. I serve on the House Energy 
and Commerce Committee. The science is clear, cutting carbon 
emissions over the long term is key to reducing the risks from 
extreme weather.
    So I thank you for the opportunity to testify. I look 
forward to working together to help our fellow Americans heal 
from Hurricane Sandy and to ensure that we all better prepared 
for similar storms in the future.
    Thank you so much.
    Senator Boxer. Thank you, Representative.
    And now we go to Representative Grimm. Welcome.

               STATEMENT OF HON. MICHAEL GRIMM, 
         U.S. REPRESENTATIVE FROM THE STATE OF NEW YORK

    Representative Grimm. Thank you, Madam Chairman, I very 
much appreciate the invitation to speak before this Committee 
today.
    I very proudly represent Staten Island and Brooklyn. Staten 
Island was one of the hardest hit areas of all of New York 
City. I was on the ground from the moment the storm started. 
The amount of devastation that I saw was unimaginable. Twenty-
four Staten Islanders lost their lives. Families lost 
everything. Homes were literally torn off their foundations. 
Some collapsed. Large boats, yachts, were scattered deep into 
neighborhoods and piled up onto people's homes.
    More than 100,000 were without power, and for weeks people 
slept in a cold, damp home, apprehensive to move to a shelter 
because they were afraid of looting. The streets were dark, 
they were littered with what was once their home and their 
personal belongings.
    As a community and a city, we came together, and we cleaned 
up the surface rather quickly. But there are still much deeper 
and continuing challenges that remain.
    Families are still in shelters. The need for housing is one 
of our top priorities. Others are struggling with FEMA and SBA 
to receive adequate assistance. There are health concerns. Fuel 
spilled into people's yards and homes. Raw sewage backed up and 
filled people's homes to the ceiling.
    Homeowners are uncertain about EPA guidelines and not 
rebuilding their homes properly, leaving the houses at risk to 
be condemned later for mold, because they will be too sick to 
live in.
    Now, I know we are going to meet these challenges. But in 
addition, we need to rebuild to prevent future disasters. We 
need to rethink our zoning laws. And we need to provide the 
Army Corps of Engineers with adequate funding so that we can 
fortify our coastline.
    Sandy recovery is far from over. In fact, it is just 
beginning. The people of Staten Island have turned to us here 
in the Congress to help them rebuild and recover.
    I think that if we here in this chamber do one-tenth of 
what the community did, came together as countrymen, as 
neighbors, as friends, if we can do even one-tenth of that, 
then I know we will be rebuilt stronger than ever.
    With that, I yield back, and I thank you.
    Senator Boxer. Thank you, Representative. Very eloquent 
testimony.
    We are going to turn now to Representative Courtney. 
Welcome, sir.

                STATEMENT OF HON. JOE COURTNEY, 
       U.S. REPRESENTATIVE FROM THE STATE OF CONNECTICUT

    Representative Courtney. Thank you, Senator.
    Again, the urgency of the situation was shown again this 
morning by the Federal Reserve, which had its reports in from 
the 12 regions around the country. The good news is 9 out of 12 
regions were showing good signs of economic growth. The three 
that weren't were Philadelphia, New York, and Boston. And it 
was Hurricane Sandy which was identified by each one of the 
Governors as the reason why.
    Again, we have to really hit the sweet spot here in terms 
of a good package to help this critical part of America to be 
part of a strong time of economic growth. Again, it is so 
important to all the priorities that we face as a nation.
    Eastern Connecticut, eastern Long Island Sound, which runs 
from Stonington, Mystic, I know an area that you visited with 
one of my predecessors, all the way to New Haven, has actually 
experienced four FEMA events in 2 years, going back to flooding 
in the spring of 2010, Hurricane Irene, Storm Alfred last year, 
and then Hurricane Sandy. In our area, because the breakwater 
from Long Island Sound actually doesn't extend all the way to 
the Stonington area, we experienced 90 mile per hour wind gusts 
that coincided with high tide. We saw flooding and physical 
destruction that actually exceeded the hurricane from 1938, 
which the old timers always said was the high water mark in 
terms of bad weather in Connecticut.
    The only point I wanted to just share is that with these 
four events, again, these communities along the shoreline and 
in the interior, every single time the first responders in 
local government has risen to the challenge in terms of making 
sure that immediate first responder issues were met, the 75-25 
reimbursement that comes from FEMA, again, given the fact that 
we have had repetitive, a series of storms, is really starting 
to affect the ability of these communities to maintain standard 
operations.
    So for example, the city of New London, which is a very 
distressed municipality, again, did everything they had to do 
in terms of protecting lives. But they are now looking at a 
structural deficit that the expenditure triggered that is now 
going to put at risk possibly laying off firemen and police.
    Again, President Obama's prompt declaration was much 
appreciated. Because that kind of took some of the doubt about 
whether or not spending money was going to rebound and 
boomerang against them. But the fact is, if we can look at that 
per capita threshold that triggers a higher reimbursement as we 
put this package together, the fact is these communities 
deserve that. They have experienced just a historic repetition 
of bad weather that is really now starting to hit bone and 
muscle in terms of the ability to provide basic functions for 
local government.
    Thank you for holding this hearing, and I look forward to 
working with the Senate and the House bipartisan group to get 
the right response to this storm.
    Senator Boxer. Well, Representative, thank you. As a former 
member of local government, there is just so many times you can 
go to the well. There is a small tax base there, especially 
coming out of a recession, where the receipts are down, and 
then this hits. I think you make an important point.
    This Committee won't be dealing with a supplemental 
directly. But indirectly, we will, because so many of us, not 
myself, West Coast, although born on the East Coast, 
experienced this. They will get very involved in the 
supplemental. I think you make a very important point about 
local match. Thank you.
    And Representative Smith, last but not least, the floor is 
yours.

                STATEMENT OF HON. CHRIS SMITH, 
        U.S. REPRESENTATIVE FROM THE STATE OF NEW JERSEY

    Representative Smith. Thank you, Madam Chair, and thank you 
so much for convening this very timely and important hearing.
    Madam Chairwoman, hours after Superstorm Sandy made 
landfall in New Jersey last month, I met with victims, elected 
officials, and emergency responders to survey the damage of our 
coastal communities. I have about 20 that are right on the 
water. I saw the devastation to lives, homes, and businesses 
brought by this horrific storm. Matter of fact, in Manasquan, I 
walked with the mayor the day after. The smell of gas, natural 
gas, was so strong, so pungent that if any of us lit a match we 
would have had an explosion. And many homes did burn down to 
nothingness.
    The courage, tenacity, and resiliency of the victims has 
been amazing. The stories of neighbors helping neighbors with 
breathtaking kindness, by providing shelter, food, and warm, 
dry clothing, are almost without number. People are at once 
heartbroken, devastated yet appreciative of the help that they 
are getting and what they have left.
    One resident of Belmar told me the day after Sandy 
demolished his home, ``I have lost everything, but at least I 
am alive.'' The first responders in the plethora of emergency 
management personnel deserve the greatest praise of all, 
risking their lives to ensure the safety of stranded families, 
and then working around the clock to mitigate suffering and 
damage. Sheriff Sean Golden of Monmouth County, the OEN 
Director and Tom's River Police Chief Michael Mastraonati, 
led-- and others, and continue to lead with extreme 
effectiveness and vision.
    The magnitude of the damage, Madam Chair, is startling. Yet 
I remain confident that we can rebuild in a smart and 
sophisticated way. Using the lessons learned from Hurricane 
Irene and now Sandy, we can take actions that will prevent this 
level of destruction and even contain the cost for the 
taxpayers when the next powerful weather event hits.
    New Jersey's almost 130 miles of coastline was battered by 
severe wind, high waves, and rising ocean. We know that in most 
areas where the Army Corps of Engineers implemented robust 
renourishment projects, there was less damage than there would 
have been. Where the Corps built higher berms, they held back 
the water. Where there were low dunes, the water came flooding 
in.
    For example, in Ocean County, where the Corps constructed 
high berms and widened beaches, damage to houses, businesses, 
and other infrastructure were significantly less than in towns 
where similar renourishment efforts had not yet begun.
    The Corps projects proved themselves extremely worthwhile. 
I think we need to continue its work and rebuild where 
feasible.
    Governor Christie, for his part, focused like a laser beam. 
His estimate is $36.9 billion, a huge sum of money, but it is, 
I think, very, very well documented.
    Preventing flooded homes and businesses is cheaper and more 
efficient than repairing them in a water breach. As such, we 
believe it is necessary--and our delegation is united on this--
and cost effective for the Federal Government to provide the 
Corps with emergency funding to finish beach replenishment jobs 
that have already been authorized, and then to look very 
carefully at those that are on the drawing board at the 
feasibility study level.
    I thank you again and would ask that my full statement be 
made a part of the record. But we need to really unite and 
really go all out to repair and to help those people who have 
been so horrifically affected.
    [The prepared statement of Representative Smith was not 
received at time of print.]
    Senator Boxer. Without objection, we will put your full 
statement in the record.
    Let it be noted that this was a bipartisan list of 
witnesses, and that all of us are saying essentially the same 
thing, which is that there was untold suffering, that we need 
to move forward in a united way to resolve this problem and 
meet the expectations of the people. And that we will step up 
and ensure that we rebuild, and we rebuild in a way where these 
things don't happen, that we keep in mind the fact that the 
local governments and the States are looking to us.
    I am very hopeful that we can meet the expectations of the 
citizens of the region and also, frankly, the country. There is 
no one in this country, unless they are really lucky, that 
hasn't been touched by one of these natural disasters, whether 
it is this one or earthquakes, flood, fire, drought, whether it 
is inland, whether it is on the coast. This is the time and the 
moment that we come together.
    I think it was shown by the Governor of New Jersey and the 
President of the United States, in the heat of a campaign, that 
we must set that all aside, and get this done. I really thank 
you for coming over. I know you had a busy, hectic day. We are 
going to put your statement into the record.
    We are very pleased that you came. This hearing stands 
adjourned.
    [Whereupon, at 12:10 p.m., the Committee was adjourned.]
    [An additional statement submitted for the record follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Thank you, Madam Chairman, for holding this very important 
hearing today. The EPW Committee has a long history of being 
actively engaged in oversight of recovery efforts and 
authorizing new projects and programs to aid those in need when 
these tragic natural disasters have struck our nation.
    I have long been a proponent of disaster preparedness, as 
we have our share of natural disasters in my home State of 
Oklahoma. In the 105th and the 106th Congresses, I introduced 
the Disaster Mitigation Act, which amended the STAFFORD Act to 
authorize programs for pre-disaster mitigation and which, among 
other things, streamlined the administration of disaster 
relief. I am pleased to say that elements of my bill were 
captured in a House version that was ultimately signed into 
law.
    ``Superstorm Sandy'' was a massively destructive storm that 
wreaked havoc on the eastern seaboard in late October. Many of 
my Committee colleagues' home States bore the brunt of this 
storm's impact, and many of our fellow Americans are still 
endeavoring to rebuild their lives following Sandy's 
devastation. My thoughts and prayers continue to be with those 
who have been affected, and I am sure the rest of the country's 
are as well.
    The purpose of today's hearing is to gain a first-hand 
understanding of what transpired in the affected areas before, 
during, and after the storm. I want to thank my colleagues for 
joining us today: sharing your stories and the stories of your 
constituents will be invaluable in helping to inform the 
Committee's thinking on how to rebuild after this storm and how 
to prepare for these types of storms in the future.
    As you know, Madam Chairman, the Committee has already 
begun to think about this very issue. Earlier this month, the 
Committee held a hearing on your draft WRDA bill where you 
announced the addition of an Extreme Weather and Disaster 
Mitigation section. My friend, Senator Lautenberg, shared 
shocking photos of the devastation in New Jersey and made an 
impassioned and compelling case for congressional action. I 
look forward to working with my colleagues on this Committee 
and in the Senate to find effective and thoughtful ways to 
address the long-term preparedness needs and resiliency of our 
nation.
    However, I believe that Congress' first and foremost 
concern should be ensuring that those Americans impacted by 
this event have the resources they need to rebuild in the near-
term. I was heartened to hear that President Obama has already 
instructed Federal agencies to ensure that red tape and 
bureaucracy will not stand in the way of recovery efforts. In a 
speech at the American Red Cross on October 30 he said, ``So I 
want to repeat--my message to the Federal Government: no 
bureaucracy, no red tape. Get resources where they're needed as 
fast as possible, as hard as possible, and for the duration, 
because the recovery process obviously in a place like New 
Jersey is going to take a significant amount of time.'' I look 
forward to working with my colleagues to ensure that Congress 
and the Administration ensure the path to recovery is as smooth 
as possible.
    Again, let me thank you all for coming today, and I look 
forward to your testimony.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
